<html>
<title> - THE GOVERNMENT AS DOMINANT SHAREHOLDER: HOW SHOULD THE TAXPAYERS' OWNERSHIP RIGHTS BE EXERCISED?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
   THE GOVERNMENT AS DOMINANT SHAREHOLDER: HOW SHOULD THE TAXPAYERS' 
                     OWNERSHIP RIGHTS BE EXERCISED?

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 16, 2009

                               __________

                           Serial No. 111-132

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-130                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
DIANE E. WATSON, California          DAN BURTON, Indiana
JIM COOPER, Tennessee                MICHAEL R. TURNER, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FORTENBERRY, Nebraska
PETER WELCH, Vermont                 AARON SCHOCK, Illinois
BILL FOSTER, Illinois
MARCY KAPTUR, Ohio
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 16, 2009................................     1
Statement of:
    Brown, Orice Williams, Director, Financial Markets and 
      Community Investment, Government Accountability Office, 
      accompanied by A. Nicole Clowers, Acting Director, Physical 
      Infrastructure, Government Accountability Office; Professor 
      B. Espen Eckbo, Tuck School of Business at Dartmouth; 
      Professor J.W. Verret, George Mason University School of 
      Law; Anne Simpson, senior portfolio manager for Global 
      Equity, California Public Employees' Retirement System; 
      Alan Tonelson, research fellow, U.S. Business and Industry 
      Council Educational Foundation; and Ralph Nader, consumer 
      advocate, accompanied by Robert Weissman, president, Public 
      Citizen....................................................    17
        Brown, Orice Williams....................................    17
        Eckbo, Professor B. Espen................................    42
        Nader, Ralph.............................................    92
        Simpson, Anne............................................    72
        Tonelson, Alan...........................................    81
        Verret, Professor J.W....................................    68
Letters, statements, etc., submitted for the record by:
    Brown, Orice Williams, Director, Financial Markets and 
      Community Investment, Government Accountability Office, 
      prepared statement of......................................    19
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    11
    Eckbo, Professor B. Espen, Tuck School of Business at 
      Dartmouth, prepared statement of...........................    44
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     5
    Nader, Ralph, consumer advocate:
        A Review of Corporate Governance.........................   128
        Prepared statement of....................................    94
    Simpson, Anne, senior portfolio manager for Global Equity, 
      California Public Employees' Retirement System, prepared 
      statement of...............................................    74
    Tonelson, Alan, research fellow, U.S. Business and Industry 
      Council Educational Foundation, prepared statement of......    83
    Verret, Professor J.W., George Mason University School of 
      Law, prepared statement of.................................    70


   THE GOVERNMENT AS DOMINANT SHAREHOLDER: HOW SHOULD THE TAXPAYERS' 
                     OWNERSHIP RIGHTS BE EXERCISED?

                              ----------                              


                      WEDNESDAY, DECEMBER 16, 2009

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Cummings, Tierney, 
Watson, and Jordon.
    Staff present: Jaron R. Bourke, staff director; Michael 
Clark, professional staff member; Jean Gosa, clerk; Charisma 
Williams, staff assistant; Leneal Scott, information systems 
manager, full committee; Adam Hodge, deputy press secretary, 
full committee; Adam Fromm, minority chief clerk and Member 
liaison; Kurt Bardella, minority press secretary; Benjamin 
Cole, minority deputy press secretary; Christopher Hixon, 
minority senior counsel; Hudson Hollister and Marvin Kaplan, 
minority counsels; and Brien Beattie, minority professional 
staff member.
    Mr. Kucinich. Good morning. The Domestic Policy 
Subcommittee of the Oversight and Government Reform Committee 
will now come to order.
    Today's hearing will examine the way that common equity 
shareholder rights acquired by the Treasury Department under 
authorities provided in the Emergency Economic Stabilization 
Act of 2008 have been exercised to date, and to assess 
alternative frameworks for exercising and protecting the 
taxpayers' interests.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition. And, without objection, Members and 
witnesses may have five legislative days to submit a written 
statement or extraneous materials for the record.
    Today and tomorrow we will be examining how the Treasury 
Department is managing common equity, or voting, shares 
acquired under the Emergency Economic Stabilization Act of 
2008. As a result of activities conducted under the Troubled 
Assets Relief Program, the Government is now a principal 
shareowner in four large, complex, and troubled companies: two 
from the financial services industry--AIG and Citigroup--and 
two from the auto industry--GM and Chrysler.
    Like it or not, the U.S. Government is today the major 
common equity shareholder, the principal owner, in two of these 
companies, AIG and GM, and has an outsized role in two others. 
Establishing a clear chain of authority, responsibility, and 
accountability for our current exercise of fiduciary 
responsibility in the case of the four companies is an 
essential and unavoidable task if Congress, and in particular, 
the House of Representatives, is to uphold its constitutionally 
defined fiduciary responsibility to protect the public 
interest.
    The main objective of these hearings is to assess how and 
how well the Treasury Department has upheld its fiduciary 
responsibilities in managing the resulting U.S. Government 
shareholding, and also to assess how and how well it has 
mobilized the full array of Government capabilities in support 
of turning around these firms and their industries, and in 
support of the broader purposes of Emergency Economic 
Stabilization Act.
    A major theme today and tomorrow will be corporate 
governance. To an important degree, the failures of all four 
companies have resulted from failures in corporate governance--
failures in risk management, failures in compliance, failures 
to hold executives accountable, and failures to rein in 
excessive corporate pay. And so the first question we have to 
ask is: Have the actions of the Federal Government had the 
effect of upholding best practices in corporate governance? Or, 
rather, does the way in which Treasury is managing our more 
than $200 billion stake in these four companies actually 
constitute a major step backward in corporate governance?
    But this is only one part of what we need to examine. 
Remember that in choosing to provide the extraordinary 
authorities of EESA, Congress was not acting primarily as an 
investor. As defined in the Emergency Economic Stabilization 
Act of 2008, the Troubled Asset Relief Program [TARP], was 
intended to serve several purposes. Beyond providing liquidity 
to the financial system, EESA has as its second main purpose to 
ensure that the authorities and facilities created ``are used 
in a manner that'' promotes jobs and economic growth, helps 
homeowners stay in their homes, protects home values, 
retirement accounts, and life savings, ``maximizes overall 
returns to the U.S. taxpayer,'' and ``provides public 
accountability'' for the exercise of the authorities granted. 
Thus, the purposes and obligations of the U.S. Government are 
not at all limited to the maximization of shareholder value, 
and our fiduciary obligations are not at all exhausted merely 
by upholding established best practices in corporate 
governance, as necessary and urgent as this is.
    Now when it comes to broader issues, there is a really 
fundamental inequity.
    Consider first how the Treasury Department has handled the 
financial companies. When it came to intervening in the large 
financial institutions, and certainly AIG and Citigroup, the 
U.S. Government could have simply purchased the companies for a 
song. Or it could have forced the banks through bankruptcies, 
and forced creditors and other stakeholders to take major 
haircuts to share the pain. But, instead, the path that was 
chosen guaranteed payoffs for all creditors, and guaranteed 
outsized bonuses to even the employees who were most directly 
responsible for nearly blowing up the world economy. The 
upshot: This holiday season, bankers are taking home the 
largest bonuses ever paid. Creditors have been made whole, and 
shareholders that counted on government support and stayed with 
the companies are seeing values restored, while others that 
bailed out and came back in after TARP money was flowing have 
made a killing.
    But now wait; there is more. On the front page of this 
morning's Washington Post we see that the Treasury is so eager 
to placate the people at Citigroup and help them get out from 
under the thumb of the paymaster that it has agreed to allow 
Citigroup to keep billions of dollars in tax liabilities it 
would owe as soon as it pays back the TARP funds. These taxes 
are worth more than any alleged ``profit'' to taxpayers from 
the TARP repayment and interest.
    I want the administration to know that we are going to look 
into this. I want the administration to know that we are going 
to look into this deeply. And I want all those at Citigroup who 
have had their tentacles across this Government to understand 
that we are watching this and we are looking at their every 
move that they have made. And if you want any further 
reference, you can look at Matt Taibbi's article in Rolling 
Stone, which I have read thoroughly, and it raises plenty of 
questions about Citigroup and people in the administration.
    Now contrast the kid glove treatment given to the financial 
sector with the treatment of the auto companies and their 
stakeholders under TARP, the overall support and level of 
effort expended for the American auto industry, and the broader 
impact of the crisis and of Government intervention on U.S. 
manufacturing. In the case of the auto companies, shareholders 
were wiped out, and creditors, including pension funds, were 
forced to accept as little as 10 cents on the dollar for their 
previous investments. The impact of the auto rescue on 
employment was not to avoid major cuts in jobs or production. 
Instead, it was to accelerate pre-existing plans for downsizing 
U.S. production, work hours, pay scales, and dealerships by as 
much as 4 years. Plant closings, brand reductions, and, as we 
all know, dealer closures, and other restructurings were also 
advanced. More difficult to see, but equally important, is the 
impact on suppliers and their employees. What we do know is 
that even after the bailout, in October, GM's then CEO spoke 
openly of sourcing even more parts from Korea.
    Finally, there seems to be a pattern of favoritism shown to 
the financial services industry, and of ``malign neglect,'' 
when addressing issues of manufacturing, job creation, and 
decent blue-collar wages. To my knowledge, today's and 
tomorrow's hearings are Congress's first attempt to create some 
measure of accountability over Treasury's handling of U.S. 
shareholder interests financed through TARP. What the Domestic 
Policy Subcommittee has found preliminarily is that too much of 
what the Treasury Department has done seems to be designed to 
evade and obfuscate accountability. This is not acceptable. We 
need to find another way forward. We need to find or establish 
new agencies, with clear lines of authority, to do the jobs 
that TARP was intended to do. Left up to Treasury on its own, 
those jobs are not getting done, and probably never will be.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5130.001

[GRAPHIC] [TIFF OMITTED] T5130.002

[GRAPHIC] [TIFF OMITTED] T5130.003

    Mr. Kucinich. I yield to the gentleman from Ohio, Mr. 
Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. Let me thank you for 
holding today's hearing. I commend you for focusing the 
subcommittee's time on the vital question confronting the U.S. 
economy and the American taxpayers: Given the unfortunate road 
of the bailouts we have gone down, how should the Government 
manage its interest in private sector companies so as to ensure 
that the taxpayers are repaid as quickly as possible?
    Unfortunately, TARP has become nothing more than a slush 
fund for the administration. The trend toward the 
nationalization of private sector firms did not stop with the 
banking sector. TARP has been used to secure Government 
ownership of automobile manufacturers, bail out insurance 
companies, and subsidize mortgage modifications, among other 
programs.
    Now President Obama says that he intends to use repaid TARP 
funds for the so-called job creation programs, the second 
stimulus bill that is slated to be on the calendar today. This 
trend of using taxpayer money authorized for one purposes for a 
completely different purpose is troubling and, frankly, it must 
stop.
    Many of us voted against TARP--I know the chairman and I 
both did--and our skepticism about the bailouts of private 
firms, I think, has been vindicated. We have seen numerous 
problems at the companies under the Government's control. For 
example, the committee has explored the flaws in the AIG trust 
agreement. This agreement, established by Mr. Geithner when he 
was president of the New York Fed, creates an unaccountable 
entity responsible for the management of the taxpayers' 80 
percent interest in AIG. In addition, AIG has been hampered by 
the control of the Obama administration's so-called pay czar. 
Thirteen of AIG's top 25 employees have already left, and AIG's 
recently hired CEO and other top executives threaten to leave 
due to the pay czar's rulings.
    These developments reveal another pitfall of the bailouts. 
While we don't like paying these employees' competitive 
salaries--we may not like that--the reality is that without 
talented employees, AIG will simply not be able to repay the 
American taxpayers.
    The politicalization of General Motors and Chrysler has 
also demonstrated the problems created by the bailouts. In 
order to fully repay the taxpayers for the bailout of GM, the 
company will have to achieve a larger market capitalization 
than in any other time in its history. Making decisions that 
adhere to the wishes of the Obama administration's auto task 
force may benefit the unions or other special interest group, 
and satisfy the demands of powerful Members of Congress but 
will not lead to business success and taxpayer repayment.
    We have an obligation, Mr. Chairman, to ask how and when we 
can escape from this mess. The American people have a right to 
know how this administration intends to manage taxpayer 
interest and all the firms that have been bailed out. We must 
ensure that the American people are paid back quickly and that 
as much of their money as possible is salvaged from this 
unprecedented and unwise intervention into the U.S. economy.
    This is a hearing that takes us in the right direction in 
answering these important questions and, again, I want to thank 
you for your willingness to put this together and for our 
witnesses for being here this morning.
    Mr. Kucinich. I thank the gentleman.
    The Chair recognizes Mr. Cummings of Maryland. You may 
proceed.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Today's hearing highlights two issues for me: that the 
economy is far from out of the woods and we will not know the 
final cost of the financial crisis for some time.
    Economists may herald the end of the technical recession, 
but I would hate to have to make that argument to the 10 
percent of our Nation that is out of work, the millions of 
small businesses that still cannot access credit, or the 
millions of homeowners who find themselves in or near 
foreclosure. Further, the American taxpayers were made 
involuntary investors in several firms last year to provide the 
financial market the stability necessary to ensure they kept 
functioning in the midst of unprecedented circumstances. Given 
the dire straits for so many Americans, in return for their 
investments in AIG, GM, and other firms, they are owed not only 
our efforts to maximize the value of the equity they have 
acquired, but also a frank evaluation of the manner in which 
those investments are managed.
    In the last month we have seen Bank of America, Citigroup, 
and Wells Fargo announce repayment of their TARP obligations. 
Further, the interim CEO at General Motors, Edward Whitaker, 
announced yesterday that the auto maker would repay its 
Government loans by June 2010. The news of repayments by these 
firms receiving extraordinary assistance is a sign that the 
financial sector has all but recovered. But it also raises 
three critical points that we must now address:
    First, despite the public pronouncements by Bank of 
America, Citigroup, and Wells Faro that they are off the 
Government tab, the taxpayers still retain equity positions in 
some of the firms, highlighted by their 34 percent stake in 
Citigroup. As a result, we remain shareholders and must 
continue to diligently play a role in the future of the firm.
    Second, some analysts have criticized the Treasury's 
decision to allow these firms to repay the Government, arguing 
that the firms have gotten out of executive pay restrictions 
while still presenting systemic risk. Therefore, it remains to 
be seen whether we have sacrificed economic stability for the 
benefit of a few Wall Street firms.
    Third, and most importantly, despite propping up Wall 
Street, credit is not flowing to small- and medium-sized 
businesses, the firms that Nobel Prize winning economist Joe 
Stiglitz called the source of job creation. This begs the 
question: With or without Government equity positions, how can 
we get these firms to start lending again?
    Mr. Chairman, once again I thank you for holding this 
hearing. Despite the technical end of the recession and shows 
of strength by Wall Street giants, the rest of America still 
desperately needs our help. I welcome the testimony of our 
distinguished witnesses and look forward to a frank and 
productive discussion, and, with that, Mr. Chairman, I yield 
back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T5130.004

[GRAPHIC] [TIFF OMITTED] T5130.005

[GRAPHIC] [TIFF OMITTED] T5130.006

[GRAPHIC] [TIFF OMITTED] T5130.007

    Mr. Kucinich. The gentleman yields back.
    I want to thank the witnesses for being here. There is a 
vote that has been called. We are going to go vote, then we are 
going to come right back. It will probably be about 30 minutes. 
Sorry for the delay. We will move as expeditiously as possible. 
We will go right to your testimony as soon as we return. Thank 
you very much.
    We stand in recess for 30 minutes.
    [Recess.]
    Mr. Kucinich. The committee will come to order.
    I want to thank all the witnesses for their patience. There 
are no additional opening statements and the subcommittee will 
receive testimony from the witnesses who are before us.
    For those who are just joining us, this hearing is 
entitled, ``The Government as Dominant Shareholder: How Should 
the Taxpayers' Ownership Rights be Exercised?''
    I want to start by introducing our first panel.
    Orice Williams Brown is Director of GAO's Financial Markets 
and Community Investment team. Her work is concentrated on 
securities and futures oversight, banking insurance and 
accounting policy. Currently, she leads GAO's work on the 
financial crisis, Treasury's troubled asset relief program and 
regulatory reform.
    We also have here, as backup, A. Nicole Clowers, who is 
currently an Acting Director at GAO and leads GAO's work on 
surface transportation. She has led GAO's evaluations of the 
Federal Government's assistance to the auto industry, among 
other topics. Ms. Clowers will not be testifying, but will be 
available to answer questions.
    Espen Eckbo. Professor Eckbo is the Tuck Centennial 
professor of finance and founding director of the Lindenauer 
Center for Corporate Governance at the Tuck School of Business 
at Dartmouth. He has written widely on a variety of corporate 
finance related topics, currently serves on the Advisory Board, 
Center for Leadership and Governance of America's Health 
Insurance Plans.
    Professor J.W. Verret is senior scholar at the Mercatus 
Center and assistant professor of Law at George Mason 
University School of Law. He is an expert on corporate 
governance and has published in a number of legal journals.
    Ms. Anne Simpson is senior portfolio manager for Global 
Equities at the California Public Employees' Retirement System, 
the largest public pension system in the United States, with 
approximately $200 billion under management. CalPERS provides 
retirement and health benefits to more than 1.6 million public 
employees, retirees, and their families, and more than 2500 
employees. Previously, Ms. Simpson was the executive director 
of the International Corporate Governance Network, a body whose 
members are drawn from over 40 countries.
    Alan Tonelson is a research fellow with the U.S. Business 
and Industry Council Educational Foundation, a Washington 
research organization studying U.S. economic technology and 
national security policy. Mr. Tonelson's articles on American 
politics, foreign policy, globalization, and technology policy 
have appeared in nearly every influential publication. He is a 
frequent commentator on radio and television.
    The next person, Ralph Nader, needs no introduction, but I 
am going to introduce him anyway. Mr. Nader is an historic 
figure who, more than any other single person, has helped us to 
drive safer cars, eat healthier food, breathe better air, drink 
cleaner water, and work in safer environments. He has been 
doing this work for more than four decades. Mr. Nader's 
advocacy led to the passage of a National Traffic and Motor 
Vehicle Safety Act. He was instrumental in the creation of the 
Occupational Safety and Health Administration, the 
Environmental Protection Agency, the Consumer Product Safety 
Commission, the National Highway Transportation Safety 
Administration. By starting dozens of citizens groups, Ralph 
Nader has created an atmosphere of corporate and governmental 
accountability. He was named by The Atlantic as one of the 100 
most influential figures in American history and by Time and 
Life Magazines as one of the most influential Americans of the 
20th century.
    When I was mayor of Cleveland, Ralph Nader helped me save a 
city's municipal electric system, something that the people of 
Cleveland remember and are always grateful for.
    Finally, I want to introduce Robert Weissman, who is here 
accompanying Mr. Nader. Robert Weissman is president of Public 
Citizen, a nonprofit research, lobbying, and litigation public 
interest organization, with 150,000 members and supporters. He 
is co-author of a forthcoming book, Corporate Ethics 
International, examining how government can leverage its 
investment in Citigroup to advance public policy objectives. 
Mr. Weissman will not be testifying, but will be available to 
answer questions.
    I want to thank all of you for appearing before this 
subcommittee today.
    Now, any person who is going to be testifying, including 
the people who are sitting in the second row, if you may answer 
a question, I am going to ask that all the witnesses, including 
those who just may be only answering questions, please rise and 
raise your right hands to be sworn.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    Ms. Brown, you will be our first witness. We ask you to 
proceed for 5 minutes. Your entire statement will be included 
in the record. Once the light goes to red, we would like you to 
wrap it up so we can keep this moving. But whatever you submit 
to this committee will be in the record of the hearing, so you 
can just give us a summary.
    You may proceed. Thank you.

STATEMENTS OF ORICE WILLIAMS BROWN, DIRECTOR, FINANCIAL MARKETS 
  AND COMMUNITY INVESTMENT, GOVERNMENT ACCOUNTABILITY OFFICE, 
  ACCOMPANIED BY A. NICOLE CLOWERS, ACTING DIRECTOR, PHYSICAL 
INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE; PROFESSOR B. 
 ESPEN ECKBO, TUCK SCHOOL OF BUSINESS AT DARTMOUTH; PROFESSOR 
   J.W. VERRET, GEORGE MASON UNIVERSITY SCHOOL OF LAW; ANNE 
SIMPSON, SENIOR PORTFOLIO MANAGER FOR GLOBAL EQUITY, CALIFORNIA 
 PUBLIC EMPLOYEES' RETIREMENT SYSTEM; ALAN TONELSON, RESEARCH 
    FELLOW, U.S. BUSINESS AND INDUSTRY COUNCIL EDUCATIONAL 
FOUNDATION; AND RALPH NADER, CONSUMER ADVOCATE, ACCOMPANIED BY 
           ROBERT WEISSMAN, PRESIDENT, PUBLIC CITIZEN

               STATEMENT OF ORICE WILLIAMS BROWN

    Ms. Brown. Mr. Chairman, Ranking Member Jordan, and members 
of the subcommittee, I am pleased to be here this morning to 
discuss the Government's role as shareholder in AIG, Citigroup, 
Chrysler, and General Motors. As requested, I will briefly 
touch on three broad issues.
    First, from our previous work on Federal financial 
assistance to large firms and municipalities, we have 
identified three fundamental principles that provide a 
framework for considering and evaluating assistance: one, the 
problems confronting the industry need to be clearly defined, 
distinguishing between those that require an immediate 
financial response from those that are likely to require more 
time to resolve; two, determine whether the national interests 
will be best served through some type of government 
intervention or whether market forces and established legal 
procedures such as bankruptcy should be allowed to take their 
course, and, if Federal financial assistance is needed, clear 
objectives and goals for this assistance must be established; 
and, three, given the significant financial risk the Federal 
Government may assume on behalf of taxpayers, the structure 
created to administer any assistance should provide for 
appropriate mechanisms to protect taxpayers from excessive or 
unnecessary risks, such as concessions by all parties, controls 
over management, and compensation for risk. However, the recent 
crisis has posed unique challenges in adhering to this 
framework due to its sheer size and scope.
    Next, I will touch on the Government's role as shareholder, 
which differed by type of institution and assistance provided. 
For example, the Federal Reserve Bank of New York, as a 
condition of the secured loans it provided to AIG, created a 
trust to hold the convertible preferred shares it acquired as a 
condition of this credit. Conversely, Treasury obtained Citi 
common shares after Citi requested that Treasury's initial 
investment be converted to common shares to strengthen Citi's 
capital structure. For Chrysler and GM, Treasury obtained an 
ownership interest in return for the financial assistance 
provided to help the companies restructure.
    According to Treasury, it has developed several core 
principles to guide its oversight of its investments going 
forward. These included acting as a reluctant shareholder, not 
interfering in day-to-day management decisions, ensuring a 
strong board of directors, and exercising limited voting 
rights. Treasury has established conditions such as executive 
compensation requirements and voting on certain limited 
matters, and routinely monitored the companies' operations.
    Finally, as part of our ongoing work with SIGTARP, we are 
reviewing three areas: the extent of Government involvement in 
corporate governance and operations of companies that have 
received exceptional assistance; how Treasury ensures that 
companies are complying with key covenants; and the 
Government's management of its investments and divestiture 
strategies.
    One issue we are exploring is the advantages and 
disadvantages of a trust arrangement versus direct management. 
For example, directly managing the investments gives the 
Government greater control over these investments, but it also 
raises potential conflicts of interest when the Government is 
both a regulator and investor. GAO and SIGTARP are also 
reviewing the Treasury's plans for divesting, which are still 
evolving; and, except for Citi, Treasury has yet to develop 
exit strategies for unwinding the investments in others.
    In closing, I would like to note that Treasury faces a 
number of competing and, at times, conflicting goals. For 
example, protecting the taxpayers' interests must be balanced 
against its plan to divest its ownership interests as soon as 
it is feasible. Consequently, Treasury may have to balance its 
desire to exit as quickly as possible with the need to maintain 
its equity interests long enough for the companies to 
demonstrate sufficient financial progress.
    Second, establishing and monitoring benchmarks is an 
important part of Treasury's management of these investments 
because they inform the ultimate decision on when and how to 
sell each investment. Regularly monitoring the benchmarks will 
be important for Treasury to help ensure that taxpayer 
interests are maximized.
    And, finally, while many agree that TARP funding has 
contributed to the stabilization of the economy, the 
significant sums of taxpayer dollars that were invested in a 
range of private companies warrant continued oversight and 
development of a prudent divestiture plan.
    Thank you. My colleague, Nicky Clowers, who is 
knowledgeable about the assistance provided to the automobile 
industry, and I will answer any questions at the appropriate 
time.
    [The prepared statement of Ms. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T5130.008
    
    [GRAPHIC] [TIFF OMITTED] T5130.009
    
    [GRAPHIC] [TIFF OMITTED] T5130.010
    
    [GRAPHIC] [TIFF OMITTED] T5130.011
    
    [GRAPHIC] [TIFF OMITTED] T5130.012
    
    [GRAPHIC] [TIFF OMITTED] T5130.013
    
    [GRAPHIC] [TIFF OMITTED] T5130.014
    
    [GRAPHIC] [TIFF OMITTED] T5130.015
    
    [GRAPHIC] [TIFF OMITTED] T5130.016
    
    [GRAPHIC] [TIFF OMITTED] T5130.017
    
    [GRAPHIC] [TIFF OMITTED] T5130.018
    
    [GRAPHIC] [TIFF OMITTED] T5130.019
    
    [GRAPHIC] [TIFF OMITTED] T5130.020
    
    [GRAPHIC] [TIFF OMITTED] T5130.021
    
    [GRAPHIC] [TIFF OMITTED] T5130.022
    
    [GRAPHIC] [TIFF OMITTED] T5130.023
    
    [GRAPHIC] [TIFF OMITTED] T5130.024
    
    [GRAPHIC] [TIFF OMITTED] T5130.025
    
    [GRAPHIC] [TIFF OMITTED] T5130.026
    
    [GRAPHIC] [TIFF OMITTED] T5130.027
    
    [GRAPHIC] [TIFF OMITTED] T5130.028
    
    [GRAPHIC] [TIFF OMITTED] T5130.029
    
    [GRAPHIC] [TIFF OMITTED] T5130.030
    
    Mr. Kucinich. Thank you very much for your testimony, Ms. 
Brown.
    Professor Eckbo, you may proceed for 5 minutes.

             STATEMENT OF PROFESSOR B. ESPEN ECKBO

    Mr. Eckbo. Thank you, Mr. Chairman and distinguished 
members of the committee. Thank you for inviting me to testify 
today.
    I argue in my testimony that the Government, as a large 
shareholder, should adopt a proactive stand in terms of 
exercising its voting rights to promote best governance 
practices. To be clear, I am not advocating direct Government 
intervention in the business operations of the firms in which 
it is a large shareholder. For that, the troubled firms should 
hire turnaround expertise. I do not believe the Government can 
morph itself into turnaround expert in competition with private 
equity and similar expertise.
    What I do recommend is the form of shareholder activism 
commonly exercised today by large institutional shareholders, 
such as pension funds in particular, and which is needed to 
ensure that the companies operate under the most efficient 
governance systems. My recommendations follow from the fact 
that the Government is a large shareholder, and not because it 
is the Government. The recommendations hold for any large 
shareholder, State or private.
    Minority shareholders benefit from the presence of a large 
block holder because only the latter has the economic incentive 
to exercise voting rights in an efficient manner. Thus, the 
Government is now in a unique position to improve inefficient 
governance systems and practices. However, to have this 
positive effect, the Government must take a proactive stance on 
share voting in accordance with the value maximization 
principle and existing best governance practices derived from 
this principle.
    My written testimony discusses the following areas: general 
director election reform, structural takeover defenses, 
downsize and combining the two roles, the CEO and board 
chairmanship, and executive compensation.
    The common theme underlying all of these areas of concern 
is a lack of confidence in boards. Should we be surprised that 
shareholders question executive compensation in a system where 
the director election system is rigged in favor of candidates 
nominated by corporate insiders, where the firm insists on an 
arsenal of poisonous takeover defenses, and where the top 
executive also runs the board?
    Things like shareholder say-on-pay, majority rules in 
director election, appointment of an independent lead director 
are simply band-aids to help offset the fact that a majority of 
shareholders find it too costly to actively vote in today's 
system. If shareholders can reasonably expect to be able to 
replace directors who they consider incompetent or unwilling to 
represent owners, why would anyone insist on say-on-pay?
    So the most important governance task in the United States 
today is to fix the director election system itself. SEC has 
begun to address this concern and now is the time for a large 
Government shareholder to voice its report.
    It is a common misconception that the shareholder value 
maximization objective is somewhat charitable toward 
shareholders. Rather, it is the very fundament on which our 
corporate system rests, much like a rising tide raises all 
boats, so that shareholder value maximization serves the 
interest of all constituencies higher up in the priority food 
chain. As a large shareholder, the U.S. Government, as the U.K. 
government before it, should actively seek directors who 
understand these fundamental points.
    Given the prominence of say-on-pay issues in today's 
debate, how can this issue be resolved? It is unlikely that 
shareholders are any better than boards in determining the 
right pay. Three points. First, executive pay should be 
structured so as to depend on firm performance; thus, the 
insistence on restricted stock options or restricted stocks 
representing large--typically 60 percent--of the total pay 
package. This is in line with the recommendations recently by 
Mr. Feinberg for TARP recipients.
    Second, the more difficult issue is to determine the total 
pay package itself, and not just the split between cash and 
stock. The total pay package ought to reflect the executive's 
value added, his or her marginal productivity. Unfortunately, 
while it is possible to get a reasonable estimate of the value 
added of, say, Michael Jordan joining the Chicago Bulls--which 
may be why no one seems to be arguing that sports superstars 
and others are overpaid--estimating the margin of productivity 
of a CEO who works in a large organization is much more 
difficult. Awarding millions of dollars in executive pay, 
without being able to forcefully communicate to investors why 
the CEO is supposed to be worth, is part of why shareholders 
demand a say. Here, boards and compensation consultants need to 
work harder.
    Third, pay packages will also reflect the relative 
bargaining power. High profile executives commonly hire 
professional negotiators to assist in negotiations with the 
board. The board often does not meet this challenge and risks 
being seen as pushovers. Since executive pay awards largely 
come out of the pockets of shareholders, it again comes down to 
whether the board understands its central role as maximizer in 
shareholder value.
    In sum, we need not only a more efficient director election 
system, but also to promote an efficient board structure and 
elect directors who understand the fundamental role of 
shareholder value maximization in the corporate system. We need 
better boards and for the Government to lead the way in its 
capacity as a large shareholder today.
    Thank you for your attention.
    [The prepared statement of Mr. Eckbo follows:]

    [GRAPHIC] [TIFF OMITTED] T5130.031
    
    [GRAPHIC] [TIFF OMITTED] T5130.032
    
    [GRAPHIC] [TIFF OMITTED] T5130.033
    
    [GRAPHIC] [TIFF OMITTED] T5130.034
    
    [GRAPHIC] [TIFF OMITTED] T5130.035
    
    [GRAPHIC] [TIFF OMITTED] T5130.036
    
    [GRAPHIC] [TIFF OMITTED] T5130.037
    
    [GRAPHIC] [TIFF OMITTED] T5130.038
    
    [GRAPHIC] [TIFF OMITTED] T5130.039
    
    [GRAPHIC] [TIFF OMITTED] T5130.040
    
    [GRAPHIC] [TIFF OMITTED] T5130.041
    
    [GRAPHIC] [TIFF OMITTED] T5130.042
    
    [GRAPHIC] [TIFF OMITTED] T5130.043
    
    [GRAPHIC] [TIFF OMITTED] T5130.044
    
    [GRAPHIC] [TIFF OMITTED] T5130.045
    
    [GRAPHIC] [TIFF OMITTED] T5130.046
    
    [GRAPHIC] [TIFF OMITTED] T5130.047
    
    [GRAPHIC] [TIFF OMITTED] T5130.048
    
    [GRAPHIC] [TIFF OMITTED] T5130.049
    
    [GRAPHIC] [TIFF OMITTED] T5130.050
    
    [GRAPHIC] [TIFF OMITTED] T5130.051
    
    [GRAPHIC] [TIFF OMITTED] T5130.052
    
    [GRAPHIC] [TIFF OMITTED] T5130.053
    
    [GRAPHIC] [TIFF OMITTED] T5130.054
    
    Mr. Kucinich. I want to thank you, Professor, for your 
testimony.
    I want to acknowledge the presence of committee members, 
ranking member, Mr. Jordan, Mr. Cummings of Maryland, Mr. 
Tierney of Massachusetts. Thank you all for being here.
    Professor Verret, you may proceed with your 5 minute 
testimony.

                    STATEMENT OF J.W. VERRET

    Mr. Verret. Thank you, Chairman Kucinich, Ranking Member 
Jordan, and distinguished members of the committee. It is a 
privilege to testify in this forum today. My name is J.W. 
Verret. I am an assistant professor of law at George Mason and 
a senior scholar with the Mercatus Center. I also had the 
opportunity to consult for the Special Inspector General for 
TARP and the GAO on a corporate governance audit of TARP firms.
    The past year has seen some unprecedented events in the 
history of American business. Through the bailout, our 
Government has become a controlling shareholder in many 
bedrocks of the business community.
    Some political leaders have argued that since the 
Government owns these companies, it should seek to control 
their day-to-day business decisions. The reason I have joined 
you today is to explain why this view is not only misguided, 
but downright dangerous to the taxpayers' investment, as well 
as the pension funds and retirement funds of ordinary 
Americans.
    Government ownership in private companies perverts the 
accountability of both Government and business. To understand 
why, we must appreciate that Government leaders and business 
leaders are held accountable by entirely different means. 
Governments are accountable to voters based on their ability to 
get re-elected; business leaders are held accountable by their 
ability to maximize profits for their shareholders. And the 
overwhelming majority of those profits for shareholders go to 
Main Street investors. Working Americans like teachers, 
firefighters, policemen, all depend upon this mechanism to fund 
their retirements.
    Maintaining a buffer between short-term political interests 
and long-term financial soundness is absolutely critical. The 
economic evidence from around the globe is overwhelmingly clear 
that political ownership of private banks and financial 
companies results in lower GDP growth, increased need for 
subsequent government bailout, and politicized lending 
practices. I am concerned that we may see politics driving 
business decisions, such as TARP banks encouraged to subsidize 
lending in battleground States, for example.
    The Treasury Department owns one-third of Citigroup. This 
fact has given the Government enormous power over Citigroup's 
operations. Consider the case of Andrew Hall, a legendary 
commodities trader at Citigroup, who generated an average of 
$250 million a year over the last 5 years for Citigroup and 
Citigroup's investors, including their investors now, which 
would be the taxpayer and which would be the pension funds and 
retirement funds of everyday Americans.
    Mr. Hall was paid a percentage of that annual $250 million 
he generated for Citigroup. His annual salary was definitely 
high, but it was an entirely performance-based package. The pay 
czar decided that Mr. Hall's salary was just too large to 
justify to populous pressures, so Citigroup was forced to sell 
off Mr. Hall's division at a deep discount. Losing Andrew Hall 
will cost Citigroup hundreds of millions of dollars per year, 
and that cost will fall on Citi's investors, including the 
American taxpayer. But the decision was politically 
advantageous to the executive branch in the short-term, so it 
was inevitable because of the Government's share ownership.
    The case of General Motors is even worse. GM has been 
pressured by political leaders, responding to alliances with 
failed automobile dealerships, to keep those failed dealerships 
open. Political leaders have exerted pressure to force GM to 
overpay on its shipping contracts so that truckers using 
politically favored unions, like the Teamsters, win the bids. 
Make no mistake, the cost of this crony capitalism is borne by 
the American taxpayer. Government shareholders don't have to 
play by the same legal rules as the rest of us, a fact which 
will strain the governance mechanisms of our capital markets at 
a time when they are already in crisis.
    Bipartisan legislation pending in the House and Senate 
stand to address these problems and create a buffer between the 
taxpayers' investment and political leaders who would use that 
investment to pander to special interests. The TARP Recipient 
Ownership Trust Act of 2009, introduced in the House by 
Congressman Bacchus and in the Senate by Senators Warner and 
Corker, would require the Secretary of the Treasury to place 
ownership of TARP investments in trust to be held on behalf of 
the American people. The act would task the trustees of that 
trust, appointed by the President, with a fiduciary duty to 
maximize the value of the investment, and it would include a 
sunset provision to get out of TARP investments by December 
2011.
    The prospect of the Government actively voting their shares 
in TARP recipients holds grave risks. Political leaders have 
stuffed the Federal budget with pork barrel projects at great 
cost to the American taxpayer. We must not permit them to do 
the same with the private budgets of private banks. If we do, 
the taxpayer will be left holding the tab.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Verret follows:]

    [GRAPHIC] [TIFF OMITTED] T5130.055
    
    [GRAPHIC] [TIFF OMITTED] T5130.056
    
    Mr. Kucinich. Thank you for your testimony, Professor.
    The Chair recognizes Ms. Simpson. You may proceed for 5 
minutes.

                   STATEMENT OF ANNE SIMPSON

    Ms. Simpson. Thank you. Good morning. First of all, many 
thanks to the committee chairman, the ranking member, and the 
honorable members for an opportunity to testify before you. My 
name is Anne Simpson. I am the senior portfolio manager for 
Global Equities, as the chairman kindly mentioned, and, as 
such, I am responsible for CalPERS corporate governance 
program.
    As you will be aware, CalPERS is the largest public pension 
fund in the United States. We have assets of some $200 billion 
that we are responsible for, which we invest on behalf of 1.6 
million beneficiaries.
    As a long-term global investor in more than 9,000 public 
companies, we have both a direct and an indirect interest in 
the success of the TARP program. We have a direct interest 
because, regardless of the reduced values that we still see in 
these companies, we hold well in excess of $7 billion in both 
debt and equity in recipient companies. We have an indirect 
interest, or I should say perhaps a systemic interest in the 
success of the TARP program because CalPERS is as close to 
being a universal and permanent owner as it is possible to be. 
We need the system to work. We rely upon this critical sector 
of the economy functioning as much as any others.
    My role here today, though, is to share something of 
CalPERS' experience in its corporate governance program for the 
following reason: We have taken governance very seriously, we 
devote resources to it, and we have seen, across our portfolio, 
that wherever capital is allocated, governance can make a 
difference to the mitigation of risk and also to the 
enhancement of returns.
    Specifically, I would like to just share with you what we 
do in addressing problems at financially troubled companies and 
how we use a governance framework to approach the difficulties 
those companies have.
    And, finally, I would like to say something about what we 
consider best practice to look like in this field; in other 
words, what we have learned about what can work and what 
doesn't work, and how we hope that the Government, as 
shareowner, will join the community of responsible shareowners 
in engaging with governance reforms.
    First, though, our experience on using governance as an 
approach to dealing with financially troubled companies. 
CalPERS, for over 15 years, has developed a program around the 
theme of the focus list. This is where companies in the most 
trouble, by sector, are identified each year on a number of 
screens. What we do is then analyze the governance of the 
companies to see where we, as an active and engaged owner, can 
have a positive impact on the company's health. We look at a 
range of issues, from the governance structures to the quality 
of the board, and in combination the results warrant some 
attention.
    Our external consultants will show up, monitor the 
performance of these companies each year, and their conclusions 
are that over the 5-year period of the engagement--note that is 
a fairly substantial period of time--these companies have been 
seen to outperform their benchmark by some 15 percent. The full 
details are referenced in our written testimony.
    We are firmly of the view that this form of transformation 
is something to be considered with TARP recipient companies, 
and we have conviction and we have, we feel, convincing 
evidence that transparency and accountability foster risk 
mitigation and value creation not just for TARP recipients, but 
we see this as important for the entire market.
    The issues that we think important are set out in our 
written testimony, but we want to focus on the principles of 
optimizing shareholder returns--maximizing is a word that 
perhaps suggests risk can be traded off for returns--
accountability to the owners; transparency; equitable treatment 
of minorities; and a focus on compensation for long-term 
results, including a concern with risk.
    Finally, we want to ensure that boards are led by not only 
independent directors, but those who have the skills and 
experience--and we would emphasize diversity in this context--
in order to break through some of the group think which 
bedeviled the companies that got into difficulty.
    Finally, governance reform is no guarantee, but it gives us 
a framework to hold boards accountable, and we urge the 
Government, as a fellow shareowner, to help us develop and use 
the tools we need to hold these boards accountable.
    Thank you.
    [The prepared statement of Ms. Simpson follows:]

    [GRAPHIC] [TIFF OMITTED] T5130.057
    
    [GRAPHIC] [TIFF OMITTED] T5130.058
    
    [GRAPHIC] [TIFF OMITTED] T5130.059
    
    [GRAPHIC] [TIFF OMITTED] T5130.060
    
    [GRAPHIC] [TIFF OMITTED] T5130.061
    
    [GRAPHIC] [TIFF OMITTED] T5130.062
    
    [GRAPHIC] [TIFF OMITTED] T5130.063
    
    Mr. Kucinich. Thank you, Ms. Simpson.
    The Chair recognizes Mr. Tonelson. You may proceed for 5 
minutes.

                   STATEMENT OF ALAN TONELSON

    Mr. Tonelson. Mr. Chairman, ranking minority member, 
Members Cummings and Tierney, thank you so much, on behalf of 
the 1,900 member companies of the U.S. Business and Industry 
Council, for this opportunity to testify.
    Given the current economic crisis, which shows no real 
signs of easing whatever, this subject of this hearing could 
not be more important. Yet, USBIC's member companies are very 
encouraged by this committee's recognition that the ongoing 
debate about improving the Government's performance as a 
dominant shareholder, or even major player, in critical 
industries must be dramatically broadened. It is of course 
important to achieve greater transparency and greater 
accountability in rescues and bailout programs. It is of course 
important to develop sensible exit strategies. But the 
overriding challenges facing the U.S. Government in this 
shareholder role is how to ensure that it can not only support, 
but spearhead a viable recovery strategy for the entire 
economy.
    Since the crisis ultimately stems from the American 
economy's failure in recent decades to produce nearly as much 
as it consumes, and its decision to fill that gap by incurring 
dangerous levels of debt. A viable recovery strategy clearly 
must focus on greatly increasing production relative to 
consumption; that is, the genuinely productive, wealth-creating 
sectors of the American economy need to start reversing the 
recent pattern and start to grow more rapidly than the rest of 
the U.S. economy. And those productive sectors are dominated by 
manufacturing.
    Now, clearly, our 1,900 members have a huge stake in 
helping to achieve this reorientation; they are manufacturers. 
They have a longstanding commitment to creating jobs, and 
sponsoring innovation, and spurring productivity, and boosting 
production in this country. Think of them as Main Street 
manufacturers.
    By the same token, they will be prime victims of 
Washington's continued clinging to an outmoded economic 
strategy that has made this U.S. economy dangerously finance-
heavy. But if this painful recession and this economic crisis 
teaches us nothing else, it has to teach us that everyone else 
will be hurt. Everyone else in this economy, every single actor 
will suffer unless this reorientation is actually completed.
    As my written statement details, since the recession's 
official beginning in December 2007, the economy has tragically 
moved farther from this goal of being more production-oriented, 
not closer to it. Notably, inflation-adjusted manufacturing 
output has fallen four times faster than the rest of GDP. 
Perhaps even more alarmingly, our manufacturing capacity--not 
capacity utilization, but the capacity itself--is shrinking at 
the fastest rate ever.
    Because our economy's sickness has developed over many 
years, the TARP and the rest of our economic recovery 
strategy--the same recovery strategy approved by the White 
House and endorsed by this Congress--cannot legitimately be 
blamed for most of this regression. But they haven't helped 
either, and show little promise of actually doing so. The 
problems reflect much more than the jaw-dropping gap between 
Government support for finance and Government support for U.S.-
based manufacturing. And, of course, Government support for 
finance entails much more than simply the TARP program. Much 
more.
    The problems reflect the very goals apparently set by the 
administration for finance and for an automotive sector that is 
a bellwether for the rest of manufacturing. Let nobody be under 
the misimpression that the automobile industry is the only 
industry in the American manufacturing sector that has run into 
major structural problems. That is far from true. Nothing could 
be less true. The goal for finance seems to be encouraging this 
sector to return to its pre-crisis scale and full range of 
activities, productive or not, with only modest structural and 
regulatory change.
    The first apparent goal for the U.S. auto industry seems to 
be managed contraction, managed dramatic contraction, and even 
transition to niche-producer status. Not only is this strategy 
likely to contribute to the further shrinkage of the entire 
manufacturing sector, it flies in the face of everything known 
today about the prerequisites for automotive competitiveness. A 
second main goal seems to be turning the auto industry from a 
high-wage industry into a much lower wage industry. How in the 
world can that help middle class families repair their own 
finances without growth slowing belt tightening of a dramatic 
nature?
    How to ensure that Government, as shareholder, helps 
refocus our economy on wealth creation again? My statement 
makes numerous recommendations, but I will briefly focus on 
two.
    These are two that our--am I short of time?
    Mr. Kucinich. I appreciate your testimony. Your time has 
expired----
    Mr. Tonelson. I am sorry.
    Mr. Kucinich [continuing]. But if you would like to just 
wrap it up and just tell us your two points.
    Mr. Tonelson. OK. First of all, the Government shareholding 
role must be coordinated with the entire recovery strategy 
actively and, second, policy success will require much better, 
much more detailed, and much more timely data about the economy 
as a whole and the manufacturing sector as a whole. Currently, 
too often, policymakers are flying blind.
    [The prepared statement of Mr. Tonelson follows:]

    [GRAPHIC] [TIFF OMITTED] T5130.064
    
    [GRAPHIC] [TIFF OMITTED] T5130.065
    
    [GRAPHIC] [TIFF OMITTED] T5130.066
    
    [GRAPHIC] [TIFF OMITTED] T5130.067
    
    [GRAPHIC] [TIFF OMITTED] T5130.068
    
    [GRAPHIC] [TIFF OMITTED] T5130.069
    
    [GRAPHIC] [TIFF OMITTED] T5130.070
    
    [GRAPHIC] [TIFF OMITTED] T5130.071
    
    [GRAPHIC] [TIFF OMITTED] T5130.072
    
    Mr. Kucinich. Thank you very much, Mr. Tonelson, for your 
testimony.
    The Chair recognizes Ralph Nader for 5 minutes. You may 
proceed, sir.

                    STATEMENT OF RALPH NADER

    Mr. Nader. Thank you, Mr. Chairman and members of the 
committee.
    It seems to be here in Congress the more important a 
hearing is for the people of this country, the less the press 
attends the hearings. It is kind of inverse proportion here. So 
you ought to be commended.
    In my written testimony with Robert Weissman, I give a lot 
of examples of our principle thesis: that the corporations 
which have been bailed out came to Washington. They entered the 
political arena and you simply cannot say, from an American 
Enterprise Institute framework, that you have to have the rules 
of private enterprise when General Motors and AIG, etc., fell 
all over themselves to be bailed out by the American taxpayer.
    So the question we are facing is proper political judgment 
when the Government is a common shareholder of considerable 
magnitude and when the Government also represents the taxpayer 
in terms of saving these companies, which have been 
characterized by colossal mismanagement, colossal recklessness 
with other people's money, and colossal self-enrichment. So it 
is the management failure that even tanked their own 
companies--although not necessarily their compensation plans--
that brought them to Washington.
    There has been very little attention paid to the procedural 
safeguards for Government bailouts. For many years, I have been 
urging Congress and the executive branch to establish 
procedural standards so these bailouts do not reflect secret 
edicts over weekends or dictates from the executive branch. The 
nature of the corporate State, that is, corporate government, 
what Franklin Delano Roosevelt told Congress in 1938, was 
fascism. That is the words he used. The corporate State 
requires concentration of power in one branch of government at 
the expense of the other two, and that branch is the executive 
branch.
    This was illustrated by the weekend massive bailout of 
Citigroup, when Robert Rubin went down and met with Mr. 
Bernanke and Mr. Paulson, and emerged with a press statement on 
the following Monday with a $300 billion guarantee of 
Citigroup's toxic assets and a $45 billion investment by the 
taxpayers. There was no notice to the public, no congressional 
input or participation, no taxpayer standing was permitted to 
challenge this edict, no judicial review, no standards. In 
other words, let's face it, dictatorship.
    This is a repudiation of the congressional authority under 
the Constitution. A lot of money was involved. A lot of money 
was obligated; it was done by the executive branch. Not even 
reaching the contemptuous four-page bill that Mr. Paulson sent 
to the Congress, where both Republicans and Democrats rebelled, 
which basically said give the Treasury all the authority, with 
no judicial review, plus $700 billion, thank you very much. So 
the procedural issue is very important here.
    The substantive policies, of course, reflect the procedural 
standards. When you have bad procedures, when you have 
autocratic secretive procedures, you tend to get bad 
performance substantively, and our testimony illustrates that 
in some detail. But the major thesis of the testimony is that 
when the Government is a dominant or controlling shareholder 
not of its own asking, the Government has an obligation not to 
invest passively; it should use its ownership powers to clean 
up management and, mindful of its duty to safeguard taxpayer 
financial interest, it should also pursue statutory public 
interest mandates in areas such as consumer, environment 
protection, financial stability, and financial honesty. And 
that reflects, of course, the state of workers, the state of 
consumers, the state of investors, elaborated in our testimony.
    Three quick examples. One is that the Government did not 
condition its bailout and equity infusion of AIG on the firm's 
credit default swap counterparties accepting a haircut. So it 
was basically not just a bailout of AIG, it was a bailout of 
Goldman Sachs and others. Again, very, very secretive; a 
stunning display of executive power without congressional 
participation.
    The second quick example is the double standard that you 
mentioned, Mr. Chairman. It is really amazing how fast they 
move to bail out crooked and reckless companies in the 
financial industry, but then they really hang the manufacturers 
out to dry. Not that they don't deserve a strong hand, but the 
contrast is really stunning in terms of the inferred dependency 
that the executive branch believes the rest of the economy 
relies on the financial sector. This is delegation run awry, 
when the GM deal was negotiated not by Congress, not by the 
executive branch, but by a delegated secretive White House task 
force made up of Wall Street expatriots with little or no 
experience in the auto industry.
    The other point I want to make is that people fall by the 
wayside here. The bankruptcy system now in the corporate area 
is a kangaroo court. Congress has to revisit corporate 
bankruptcy law. It is a prearranged, choreographed bankruptcy 
system where many interested parties are given no participatory 
roles or they are given arbitrary shortened participatory roles 
which are basically nominal.
    Mr. Kucinich. I would just ask that you wrap up your 
testimony.
    Mr. Nader. Let me just end with this example.
    Mr. Kucinich. Thank you.
    Mr. Nader. General Motors eliminated, under bankruptcy, its 
liability to victims of defective products it had sold before 
the bankruptcy. This is truly outrageous. This is a manifest 
injustice which is revealed by the person of Amanda Dinnigan, a 
10-year-old girl from Long Island, New York, injured by the 
allegedly faulty seatbelt in a GMC Envoy that snapped her neck 
in a crash. Her father, an iron worker, estimates her health 
care costs at $500,000 a year. Her lost quality of life will 
obviously be tragic. That and hundreds of other cases were 
rubbed out by this bankruptcy court.
    Only legislation can correct this manifest injustice to 
innocent victims of corporate defective merchandise.
    Thank you.
    [The prepared statement of Mr. Nader follows:]

    [GRAPHIC] [TIFF OMITTED] T5130.073
    
    [GRAPHIC] [TIFF OMITTED] T5130.074
    
    [GRAPHIC] [TIFF OMITTED] T5130.075
    
    [GRAPHIC] [TIFF OMITTED] T5130.076
    
    [GRAPHIC] [TIFF OMITTED] T5130.077
    
    [GRAPHIC] [TIFF OMITTED] T5130.078
    
    [GRAPHIC] [TIFF OMITTED] T5130.079
    
    [GRAPHIC] [TIFF OMITTED] T5130.080
    
    [GRAPHIC] [TIFF OMITTED] T5130.081
    
    [GRAPHIC] [TIFF OMITTED] T5130.082
    
    [GRAPHIC] [TIFF OMITTED] T5130.083
    
    [GRAPHIC] [TIFF OMITTED] T5130.084
    
    [GRAPHIC] [TIFF OMITTED] T5130.085
    
    [GRAPHIC] [TIFF OMITTED] T5130.086
    
    [GRAPHIC] [TIFF OMITTED] T5130.087
    
    [GRAPHIC] [TIFF OMITTED] T5130.088
    
    [GRAPHIC] [TIFF OMITTED] T5130.089
    
    Mr. Kucinich. Thank you very much, Mr. Nader.
    As Chair, I am going to now go to the question period. I 
would like the gentleman from Maryland, Mr. Cummings, to begin. 
So if you would go to 5 minutes of questions.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to read an excerpt from a column that Carl Icahn 
write in The New York Times on March 29th of this year. He 
writes, ``Sadly, though, under American corporate law, share 
ownership does not count for much. Barney Frank might be 
surprised to learn that a lawsuit would have almost no chance 
of success in court, even for a majority shareholder like the 
government. AIG would most likely argue that the oft-cited 
'business judgment' rule gives management wide latitude to set 
compensation without shareholder interference. What the 
government should have gotten was board representation in 
return for its large investment in AIG.''
    I just want to ask you all--whoever feels best qualified to 
answer the question, please do--while we know that AIG now has 
a substantially different board, Mr. Icahn still points out 
that shareholders have the deck stacked against them. In your 
opinion, was Icahn correct or is the current model--for 
example, the Credit Facility Trust--the best means of 
representing and ultimately extricating the Government from its 
investment in AIG?
    Mr. Verret. Well, Congressman, I would offer that one of 
the things that concerns me about corporate liability is that, 
typically, a controlling shareholder would share the same 
liability to the other shareholders as the board or the 
executive. But when the Government is the controlling 
shareholder, it has sovereign immunity, so it would not get any 
liability at all, any chance of liability.
    Now, I am aware that Mr. Icahn is critical of the business 
judgment rule, which is part of State corporate law. You know, 
sometimes shareholders win and sometimes they lose. I know that 
a challenge to Citigroup is still ongoing in the Delaware Court 
of Chancery, and it survived a motion to dismiss, and I know 
that there have been a number of cases that have won, a number 
that have settled, and some of them don't. So I think there is 
a healthy debate about the business judgment rule.
    Mr. Cummings. I was intrigued by your testimony, Professor, 
and I was just wondering how do you react when we have the AIGs 
of the world taking Government money and then basically saying 
screw you to the American public as they go off and do all 
kinds of wonderful things, junkets and bonuses and whatever? 
How is the American public, who owns it, how do you think it is 
best that they exercise some control over that?
    Mr. Verret. Well, I worry----
    Mr. Cummings. Or you don't think they should have any 
control?
    Mr. Verret. I worry that the exercise of control will 
revert to the sort of pork barrel----
    Mr. Cummings. I got all of that. But what I am saying to 
you is that--you are a law professor?
    Mr. Verret. Yes, sir.
    Mr. Cummings. And I know law professors, you sit in those 
nice offices and everything. But I am talking about the real 
nitty gritty. We have the American people who are losing their 
houses, losing their savings, losing their jobs, losing 
everything. They give to these corporations their hard-earned 
tax dollars, and then we have these corporations basically 
spitting in their faces and saying, you know, screw you. So 
what happens from a political standpoint, it becomes very 
difficult, after you have helped somebody extricate themselves 
from a drowning situation, to have them do that to you.
    So the question becomes--I got all the corporate law. I got 
that, I understand it. But how do the American people then get 
some kind of foothold in this governance so that they can make 
sure that those things don't happen. You follow what I am 
saying?
    Mr. Verret. I appreciate your concern----
    Mr. Cummings. Mr. Nader, I would like for you to chime in 
on this, if you don't mind.
    Mr. Nader. Yes, of course. We have recommended a principle 
which basically says if the Government doesn't facilitate the 
civic organization of the ultimate beneficiaries--workers, 
investors, etc.--no regulatory or bailout process is going to 
be fair and going to be enforced. What you are talking about is 
reciprocity. Look at what people have given up involuntarily: 
their jobs, their savings, their pensions, their consumer 
protections. And what are they getting in return? An in-your-
face attitude by these managers who directly or inherited 
reckless management that basically says we are going to 
continue business as usual and we are going to pay our people 
enormous bonuses.
    There is a level of arrogance and lack of remorse here that 
is unprecedented in American corporate history.
    Mr. Cummings. So you think this is new. You said it is 
unprecedented.
    Mr. Nader. In its magnitude and its face. In Japan, they 
would apologize on national TV for far less transgressions, the 
corporate executives.
    Mr. Cummings. Thank you very much. I see my time has 
expired.
    Mr. Kucinich. I thank the gentleman.
    I am going to recognize Mr. Jordan for 5 minutes, then I 
will go to Mr. Tierney, if he would like.
    Go ahead, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Professors, did you ever think you would see the day where, 
in the United States of America, we would have, in fact, a 
Federal Government pay czar telling private American citizens 
how much money they can make? And before you answer that, I 
want to go to what Mr. Nader--because I think he does have a 
valid point. In the limited context we are talking about, these 
institutions came to the U.S. Congress, stuck their hand out 
and asked for money. Maybe it is understandable, but when you 
think about where we are today and couple that with statements 
made by some Members of Congress, particularly Senator Schumer, 
where he indicated that maybe in the future we should look at 
any publicly traded company, executives at those companies, 
being subject to the pay czar. Did you ever think you would see 
that day? And I want the professors to have first whack at it.
    Mr. Eckbo. I think you actually saw say-on-pay demands back 
in the 1930's after the crash. You saw it also in the early 
1990's, and you have seen say-on-pay demands in Europe for a 
while. So I think the issue of shareholders wanting to have a 
say on pay is not terribly new. I did not expect to see it here 
as much as I have seen it, but I think it has to do, as I said 
before, I think it has to do with a failure of boards in 
general. So if you can trust your board, you can also trust 
their pay policies.
    I don't think shareholders or taxpayers are asking for a 
say on pay because they don't like the numbers per se, but 
because they don't trust the decision process that went behind 
those numbers. That is why I am saying we need to reform our 
ability to get boards to represent ourselves as taxpayers or as 
shareholders, more specifically. We need the election reform to 
be accepted.
    Mr. Verret. I think in answer to your question, Congressman 
Jordan, and also in answer to Congressman Cummings' question, I 
think one of my concerns is that, look, most of the investors 
in Citigroup, in Bank of America are pension funds and 
retirement funds. Ordinary Americans are investing in these 
companies, and I think they have already been hit hard enough. 
Look, they have foreclosures, they are facing unemployment, and 
now Government leaders are going to use their pension funds and 
their 401-Ks as a vehicle for more special interest spending 
for special interests, and I think that is the last thing they 
need right now.
    And I would also offer, with respect to say-on-pay. A lot 
of folks make an analogy to say-on-pay as it is used in the 
United Kingdom. One of the major differences between us and the 
United Kingdom is most of their investors are--most of their 
large institutional investors are insurance companies and 
private company pensions. We have a lot more union investors 
here, and I think that offers a lot more conflict of interest 
if you empower a certain minority of the shareholder electorate 
that has a special interest----
    Mr. Jordan. Let me just change gears for a minute and I 
will let you jump in here. The transparency issue that some 
brought up and particularly Mr. Nader brought up I think is 
very valid. I happen to live in a district where they closed 
the General Motors facility. I remember being on the conference 
call the night before they were going to make the announcement 
and the folks on the--Mr. Sperling on the conference call said 
the Government, the auto task force will only weigh in if it is 
a major decision. Many Members of Congress were on that call; 
they asked questions.
    Finally, it came to my question and I said, How do you 
define major? And he didn't have a definition for it, which 
means it can be any darn thing they want. We actually know that 
auto task force submitted General Motors, the executive of 
General Motors submitted a report to the auto task force their 
restructuring plan. It was denied. So who is making decisions? 
We would like to know what was in those--I have asked to see 
those. Oh, proprietary information; we can't get access. So I 
can see both sides of this equation, but this lack of 
transparency, and when you couple that with what I believe Ms. 
Brown said in her testimony, exit strategies are still 
evolving. We don't know where this is--and that is the biggest 
concern. We would like to know where this is going, how the 
taxpayers are going to get out of this, what it means for our 
economy.
    So talk to me, if you would, professor, about what I view 
as a lack of transparency with where we are right now, and then 
I will go to Ms. Simpson--I know you wanted to jump in--and Mr. 
Nader.
    Mr. Verret, you can go first.
    Mr. Verret. Sure. I would absolutely agree. I think this is 
where the liability for controlling shareholders comes in as 
well. Usually, if any other controlling shareholder would have 
done some of this stuff, they would have been taken to court 
and they would face tremendous liability. But Treasury gets a 
complete get out of jail free card from its securities and 
corporate liabilities; it is free to engage in insider trading 
if it wants to. So we have seen no accountability and no 
transparency.
    Mr. Jordan. I am out of time.
    Ms. Simpson and then Mr. Nader real quick, or whoever 
wanted to jump in. I am sorry.
    Ms. Simpson. Thank you. Briefly. I would like to comment on 
this question about accountability because it is quite normal 
in a board election, in an American company, that the 
shareholders can't vote no; they cannot actually remove the 
board. Likewise, it is expensive and fiendishly complicated to 
actually put a director forward. Therefore, we must take the 
bigger picture here and realize that the reforms on majority 
voting, as it is called, and proxy access, as it is called, are 
critical to giving owners the ability to behave responsibly and 
hold boards to account. Power--a vacuum and we have a vacuum.
    So, in the U.K., I would suggest that say-on-pay was a sort 
of additional extra. The reason pay is better aligned with 
performance and the multiples are not so eye-popping is because 
owners have the right to vote no when boards come up for 
election and it is very simple to put candidates forward.
    So we hope that those two wider reforms do come to pass in 
the United States and we think it will be a big step forward. 
Thank you.
    Mr. Kucinich. I thank the gentleman. The gentleman's time 
has expired. We may have a second round of questions; I think 
we will, given this panel.
    The Chair recognizes Mr. Tierney for 5 minutes.
    Mr. Tierney. Thank you, Mr. Chairman.
    I am struck, Mr. Verret, by some of your testimony here. I 
guess the way I read your theory is that even though the 
companies came to Washington on their hands and knees looking 
for a bailout, and that, in exercising the shareholder 
responsibility, the Government should still just step back and 
let those same failed executives and people go about their own 
way without any interference; that even as people with an 
interest in it, we should just step aside and let it go, 
meaning that they can then continue to disregard whether it is 
tax law or labor law, environmental law, regulations or 
whatever that protect what now is a principal shareholder. I 
don't think I quite get that reasoning.
    Mr. Verret. Well, that is not where I am going, 
Congressman. I would offer that I would like to see a trust set 
up to run the Government's investment in these companies. I 
would like to see these trustees, appointed by the President, 
insulated from short-term political pressure in the net 
election. Those sort of conflicts----
    Mr. Tierney. What would the relationship between those 
trustees be with the taxpayers whose money is what is invested?
    Mr. Verret. Well, in the bill that has been introduced by 
Senator Warner, Senator Corker, and also by Congressman Bacchus 
in the House, they would have a fiduciary duty to maximize the 
taxpayers' investment.
    Mr. Tierney. Much like the way there is a fiduciary duty 
for these failed executives to maximize the investment of their 
shareholders, which they did by taking exorbitant salaries and 
many times other violations of good management practices?
    Mr. Verret. Well, I wouldn't bail out this trust any more 
than I would have bailed out these companies, and I think that 
is a big part of the problem, the moral hazard problems of 
bailouts; and I am not a supporter of the bailout any more than 
I think a lot of Members of this body.
    Mr. Tierney. So you would have let AIG and Citigroup and 
all those banks just go down?
    Mr. Verret. I would have let some of the banks go down, 
absolutely, because I think they got a great deal.
    Mr. Tierney. All of them or just some of them?
    Mr. Verret. I wouldn't have given AIG nearly as much as 
they did; I would have cut the counterparties' exposure; I 
wouldn't have given----
    Mr. Tierney. But you would have given them something.
    Mr. Verret. Oh, I would have tried to make sure they didn't 
bring down the financial system, but I wouldn't have given such 
a giveaway that I think we saw----
    Mr. Tierney. So yours is a question of degree. You would 
have bailed them out; you just would have bailed them out 
differently.
    Mr. Verret. Well, I wouldn't have bailed out Citigroup; I 
would have let Citigroup fail, absolutely.
    Mr. Tierney. Well, but AIG?
    Mr. Verret. I think AIG, you had to do something because it 
would have brought the whole----
    Mr. Tierney. So you would have bailed them out; you just 
would have done it a different way than the people that made 
the decision like Paulson and others.
    Mr. Verret. I would have given them a very small percentage 
of what they gave them. And I think----
    Mr. Tierney. All right. I just want to establish it is a 
matter of degree that we are talking about.
    Mr. Verret. Sure.
    Mr. Tierney. A different look on that basis.
    Mr. Tonelson, what are your specific ideas on how we 
rebuild our manufacturing base? I read your testimony and I 
agree with some of the generalities you have in there, but if 
you had to say there are three or five specific policies that 
we ought to start embarking on right now to reestablish 
manufacturing, what would they be?
    Mr. Tonelson. Well, thank you so much, Congressman Tierney. 
There is no doubt that there are steps that have already been 
widely discussed that urgently need to be taken and, in my 
view, in fact, in the view of my organization, the most 
important steps involve the transformation of U.S. trade 
policy; and I will be very specific. There is no excuse for 
Congress, under Democrats, not to have passed a strong currency 
manipulation bill. The practice of exchange rate protectionism 
by China and other Asian countries is an abomination--should be 
an abomination to anybody who styles themselves the champion of 
the free market. It has been going on for 10 years, at least; 
it has crippled the American manufacturing base, American 
manufacturing output, American manufacturing jobs.
    We have been talking about this problem since 2002 or so. I 
can understand why a Republican administration in which the two 
non-trade policy was called by outsourcing multinational 
companies refused to act. I don't understand why this 
Democratic President and this Democratic Congress refuses to 
act.
    The second recommendation, there are already very important 
Buy American provisions in the stimulus bill. These Buy 
American provisions need to be expanded to cover all Federal 
procurement. And I understand there are problems regarding our 
World Trade Organization obligations. Unfortunately, these 
obligations may need to be suspended. We face an economic 
emergency; it is a crisis. That word is used for a reason and 
times of emergency require emergency measures; and when 
international obligations like this prevent us from taking 
common sense measures not only to rebalance our own economy, 
but to rebalance a dangerously lopsided world economy, then 
those obligations need to be set aside.
    So those are two very specific steps that can be taken this 
week.
    Mr. Tierney. If the chairman will give us unanimous 
consent, I just have a few more seconds, Mr. Nader, I would be 
interested in hearing your comment on that.
    Mr. Kucinich. Mr. Nader, you may respond to his question, 
and then I will go to the next----
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Nader. OK, thank you.
    I think, first of all, the China example is perfect. You 
can't have free trade with dictatorships. Why? Because 
dictatorships impose the costs and keep the costs down, like 
labor costs and prohibition of independent trade unions. So 
China has not only a dictatorship advantage in terms of trade, 
but it also has an absolute advantage. The late Paul Samuelson, 
economist emeritus at MIT, changed his views in a recent 
academic paper and basically said the costs of outsourcing are 
expanding beyond the benefits of outsourcing. That is what 
absolute advantage does.
    Third is the under-valuation of the currency, the yuan. 
Fourth is the rampant criminal counterfeiting of products that 
are coming into this country from China and other countries. 
And, finally, there is no consumer protection. There is no 
consumer protection treaty with China. We are getting 
contaminated fish, defective tires, ingredients in our 
pharmaceuticals that are hazardous--in one case it has already 
killed 200 Americans. There is no consumer protection treaty, 
so you have a superior advantage of shoddy goods coming in, 
driving out goods that meet consumer standards in this country.
    And then we need a level playing field. The idea of all the 
Federal subsidies and tax expenditures favoring the fossil fuel 
industry creates an unlevel playing field with sustainable 
energy and energy conservation. Part of it is being remedied in 
Congress in recent years, to be sure, but still the subsidies, 
for example, to the nuclear energy industry is massive in terms 
of no nuclear plants can ever be built in this country without 
100 percent Federal loan guarantee, according to Wall Street 
finance firms.
    So that isn't true for solar energy, for example. Solar 
energy doesn't get 100 percent guarantee. And solar energy can 
be one of the great manufacturing segments of our economy in 
terms of jobs produced, in terms of innovation applied here, in 
terms of climate change and other environmental issues, and, 
above all, in terms of its decentralized nature, contrary to 
highly centralized fossil fuel and nuclear installations into 
every community in the country creating jobs, production jobs 
and maintenance jobs.
    Mr. Kucinich. Thank you. Thank you very much, Mr. Tierney, 
Mr. Nader.
    I voted against the bailouts because I don't believe that 
Government should be picking winners and losers in the private 
sector. Now, the testimony that I have heard here from some of 
the witnesses and, indeed, the debate that goes on between some 
Democrats and Republicans in the Congress is that the corporate 
State and the Federal Government are somehow two distinct 
entities. I want to look at that in light of just one example, 
today's report, ``Tax Deal is Worth Billions to Citigroup; Deal 
Made to Recover Bailout; Firms Exempted from Rule when U.S. 
Sells Its Stake.'' The Federal Government quietly--quietly--
agreed to forego billions of dollars in potential tax payments 
from Citigroup as part of a deal announced this week to wean 
the company from the massive taxpayer bailout that helped it 
survive the financial crisis.
    Now, one of the concerns that I have had is that the 
personnel between corporate America and the Federal Government 
has basically been interchangeable at the top. You look at 
Citigroup, they are in the top level, decisionmaking level in 
the Government; there are people who used to work for them, as 
is the case with Goldman Sachs. So you wonder why there is very 
little change between one administration and another. You look 
at the bailout, the terms of the stock ownership; you look at 
TARP, post-TARP, the relationship between the Federal 
Government and the corporations.
    If I look at what happened here with this Citigroup deal, 
you would assume that the Government, if it is taking 
ownership, would protect the taxpayers, first responsibility. 
But the Citigroup deal that was exposed today, the Government, 
instead, is protecting shareholder interests over taxpayer 
interests, to ceding billions of dollars in taxes. So it raises 
the question whether or not we have had a merger that has 
occurred here, kind of a hostile takeover of the Government 
through the TARP by Wall Street. You want to talk about moral 
hazard? How about the destruction of a democratic system using 
our own money? This is why TARP was dangerous, because it is 
not only the Government reaching in to direct private 
enterprise, but it is private enterprise reaching in the other 
way to direct the Government. Who owns whom? This is one of the 
answers to the questions. Citigroup has a blank check. And I 
don't think it would be different with a Democrat or Republican 
administration; it is the same thing.
    I have a question for--and I speak as someone who has been 
following these issues for years, and we are going to--fair 
warning for the Treasury Department, which is coming here 
tomorrow. They are going to be asked a lot of details and for 
documents on this Citigroup thing. I said it before in my 
opening remarks. Matt Taibbi, in Rolling Stone, did a pretty 
good piece on detailing the financial connections between Wall 
Street players, how they are now in the administration and how 
policies seem to follow ways that help Wall Street at the 
expense of Main Street.
    Now, the question to Mr. Nader and Mr. Weissman. Some have 
said that the Federal Government did impose conditions before 
bailing out the companies. With respect just to the four 
companies which the United States now owns, how would you 
assess the significance and effectiveness of those conditions 
the United States did require, and what should the Government 
have required of TARP recipients but failed to demand?
    And then I will invite others to comment if we have time.
    Mr. Nader. Let me ask Mr. Weissman to come up and answer 
that part of the question. Thank you.
    Mr. Kucinich. Mr. Weissman has already been sworn. You may 
proceed.
    Mr. Weissman. Thank you, Mr. Chairman.
    I think you raise the core distinction in your opening 
remarks. There were the most minimal standards imposed on the 
TARP recipients, and I think we should really distinguish 
between the TARP recipients and those in which the Government 
took a controlling interest, which, as an aside, is the core 
issue at this hearing and is completely different from 
receiving loans. The conditions were minimal. Ultimately, there 
were some very modest executive compensation conditions 
imposed. In the case of AIG, they did demand the very short-
term CEO step down.
    The contrast is with the conditions imposed on General 
Motors, as well as Chrysler, where there was an extremely 
intensive review of policies that were being proposed by 
management, ousting of management, new management has come in 
that has since come and gone in the case of General Motors. The 
conditions, however, that were imposed, the scrutiny that was 
imposed in the case of General Motors I think was admirable. 
The criteria, though, by which that was applied raises several 
questions. It is not at all clear what the aim of the task 
force was in imposing the stringent conditions.
    Mr. Kucinich. Can you give any specific examples of where 
you think that we lost out on opportunities?
    Mr. Weissman. Well, one--well, maybe two. One striking 
example is that the administration, the Obama administration 
bragged that it imposed more severe wage cuts on the auto 
workers, and General Motors and Chrysler, than the Bush 
administration had done in its negotiations with the auto 
industry. It makes no sense whatsoever to bring down the wages 
both of those workers but, more importantly, the standard in 
the auto industry and manufacturing overall. As owners of these 
companies--we are not lenders to these companies; we, the 
public, are owners of the companies; they are are the dominant 
owners; they are effectively our companies--we have important 
statutory public policy objectives that we ought to be 
pursuing. We are, right now, in the midst of climate change 
negotiations.
    Mr. Kucinich. So whose interest did we represent, then, did 
the Federal Government represent?
    Mr. Weissman. I think in the case of--it is actually a 
little bit difficult to say, in the case of General Motors, 
what the objective was. I think the ultimate objective was to 
keep it as a going concern, just as a going concern, but 
without regard to why it is the public would want to maintain 
General Motors as a going concern. In the financial area, I 
think we actually represented the interest of management and, 
to some extent, the interest of maintaining Wall Street and the 
financial system.
    Mr. Kucinich. My time has expired and I try to be fair in 
the allocation of time here. We are going to have a second 
round of questions. I want to get back to that and ask other 
people to join in.
    The Chair recognizes the distinguished gentlelady from 
California, Ms. Watson, for 5 minutes, then we are going to go 
to a second round.
    Ms. Watson. All right.
    Mr. Kucinich. Thank you, Mr. Weissman.
    Ms. Watson. Thank you, Mr. Chairman. I am going to be very 
quick on this so that we can get around the second round.
    Mr. Nader, I am glad you are back at the table. I missed 
your first presentation, but if, as you assert, bailed out 
companies have no legitimate interest apart from Government 
when Government becomes the dominant shareholder, is it 
appropriate to re-purpose the companies' objectives and 
policies toward, for instance, consumer service, environmental 
responsibility, and worker investment, and to delay the 
relinquishment that these changed priorities are achieved or 
protected even if that delays return for functionality or 
profitability? What is your opinion?
    Mr. Nader. Well, I think there is a congruence between 
statutory purposes and the health of a company like General 
Motors. After all, it got into trouble, one, because it didn't 
have fuel efficient vehicles and it had a bad mix of choice of 
vehicles, relying so heavily on the SUV. It got into trouble 
because, as Ross Perot said, its management, in his words, 
``Hates its customers, hates its workers, and hates 
themselves.'' It was entirely at cross purposes with what 
professional management should incur. I could argue also that 
General Motors' fit and finish got them into trouble, compared 
to Honda and Toyota. So a lot of the statutory purposes already 
on the books advocated as not only taxpayer representation for 
value, but also shareholder power, would enhance the health of 
General Motors.
    This whole area is one of cognitive dissonance. The more 
the Government helps GM, how does Ford react, you see, which 
didn't ask for Government help? There are all kinds of 
conflicts here. But one thing that seems to be sure is that a 
basic principle of capitalism is that the owners control what 
they own, and that principle is massive and historically 
violated by big business that basically says to shareholders, 
institutional and otherwise, if you don't like the way we run 
the country--the company--that was a slip--if you don't like 
the way we run the company, sell; in other words, exit, not 
voice. And that is why, in response to Congressman Jordan's 
point--and that is why I am always amazed by people calling 
themselves free enterprise conservatives. What is say? What is 
say on pay? There is no say on pay proposed in Congress or by 
these corporations; it is just a non-binding referendum. It is 
an opinion poll by shareholders. If shareholders own the 
company, they should be able to mandate high executive salaries 
and they should be given a very small staff to do so.
    So I have no problems at all in terms of strengthening 
corporations in this country once they desperately come to 
Washington and get on their knees for a bailout in terms, as 
our testimony points out, in terms of exercising shareholder 
power as a model for the rest of the country--not passive 
shareholders--as a model for institutional shareholders, who 
should be at least as aggressive as CalPERS, and also to 
represent the taxpayer investment; and I don't think they are 
necessarily contradictory at all.
    Ms. Watson. Let me----
    Mr. Kucinich. [Remarks made off mic.]
    Ms. Watson. Yes, just one more question connected. Thank 
you.
    Mr. Kucinich. Your time expired, but if you want to--OK, 
continue with your question. Go ahead.
    Ms. Watson. I wanted to go to Professor Verret. You said 
that we probably should not have bailed out to the degree that 
we have. But you know what? It is connected to jobs. Michigan 
is suffering greatly from unemployment. When I go back to my 
district, Los Angeles, California, they don't ask me about 
debt; they want to know what we are doing to get them back to 
work. So I see the connection between capitalizing the banks 
and bailing out so that they can hold on to employees. The 
unemployment rate is unacceptable right now. So can you give me 
an opinion as it relates to jobs and less bailout?
    Mr. Verret. Sure. In answer to your question, I would say 
that I share your concerns about jobs and about employment. My 
concern is about process, is about the ability to keep 
everything off budget, off the Federal budget. We saw it once 
before with Fannie and Freddie, and folks said, well, Fannie 
and Freddie is off budget, they are not on the Federal budget.
    Well, they are on there now. And, in fact, they have been 
the beneficiary of the largest guarantee of these companies. 
Fannie and Freddie have been the beneficiary of a $400 billion 
guarantee. This morning the Wall Street Journal reports the 
Treasury is going to ask for more very soon. So I am worried 
about this sort of off budget stuff. I think we can help folks 
through the Federal budget and not have to keep it off budget, 
because ultimately the taxpayer is going to be left holding the 
tab anyway, in the future. I think keeping it secret is what I 
have a problem with.
    Mr. Kucinich. I thank the gentlelady.
    Ms. Watson. I yield back.
    Mr. Kucinich. Thank you very much. Appreciate it.
    Mr. Tierney.
    Mr. Tierney. Thank you.
    Mr. Verret, can I just ask you what is your take or your 
opinion on real say-for-pay by shareholders? Not the referendum 
Mr. Nader was talking about, but ought they not have the 
ability to really determine what the pay is going to be of 
their executives?
    Mr. Verret. Well, right now they do have the power to get 
rid of compensation committees, and I know that the California 
Pension Fund and a number of other institutional investors do a 
lot of good work in targeting compensation committee members 
that aren't doing their jobs; and they say, look, you have to 
go and they use their majority voting powers to get rid of 
them. I think that is a very effective way to do things.
    I worry on say-on-pay just because I worry about some 
special interest shareholders using this power as part of their 
negotiations with companies, and I think we have seen some 
shareholders misuse powers to the detriment of all the ordinary 
Americans that own shares through their 401-Ks.
    Mr. Tierney. That is a pretty subjective view. You say they 
are misusing their powers, but they are shareholders, and who 
is not to take the other argument that they are acting on 
behalf of those people whose money they are holding and going 
to drive that interest, which is in fact not special to them. 
Everybody has a special interest; every shareholder has a 
special interest. The board of director member who is a 
shareholder who sits on there and pads the pockets of the 
executive because he is an executive somewhere else and is 
going to be reciprocated when the guy whose pay he is jacking 
up is going to sit on his board and jack his up, that is pretty 
special interest. I just take note of that on that basis.
    Mr. Nader, can you think of any reason why we continue to 
allow corporations to deduct, as a business expense, from their 
taxes exorbitant pay for executives? Ought we not look at some 
point at protecting taxpayers by just saying beyond some point 
that is not going to be tax deductible?
    Mr. Nader. Well, you know, the Congress established a 
million dollar limit----
    Mr. Tierney. I meant a real limit, though.
    Mr. Nader [continuing]. And they circumvented it with stock 
options and so forth, so it is like trying to block water going 
downhill. So if you are going to restrict the tax deductibility 
of executive compensation, you have to also pay attention to 
how they are going to circumvent it; and they are very creative 
in circumventing it.
    One thing we have to understand, this whole subject of this 
committee, Congressman, is that corporations are very fast 
learners in gaming regulatory and bailout and subsidy systems 
from Washington, and Citigroup is a perfect example of that in 
today's Post. They are very, very creative in gaming, so you 
have to make sure that if you restrict it in one area, you have 
to take into account other evasive processes.
    But I think that if you give shareholders the authority to 
decide, not just to give their opinion, and you have pension 
funds and institutional shareholders, that will take care of a 
lot of the problem. They are not going to approve the pay of 
$70 million for Goldman Sachs' CEO if they are given the 
authority. And why shouldn't they be given the authority within 
their framework? They own the company. But the split between 
ownership and control, which was pointed out by Berle and Means 
back in the 1930's, is the way the executives dominate the 
corporation and strip the owners of control.
    The professor just noted that there could be some mischief 
by some shareholders. Well, they have to get over 50 percent, 
don't they? If 51 percent is mischief, I don't know what your 
definition of mischief is.
    Mr. Kucinich. The gentleman desires to engage in a----
    Mr. Tierney. I am happy to pass that along, Mr. Chairman.
    Mr. Verret, I think it is a fair question to you. Fifty-one 
percent, does that satisfy you that any mischief is at least 
interpreted differently than what you might view?
    Mr. Verret. Well, the voting rates of shareholders aren't 
100 percent, so some shareholders vote more often than others, 
and folks who hold shares through their 401-Ks don't have time 
to vote their shares everyday; whereas, the union pension boss 
has time to vote their shares every day that they do.
    Mr. Tierney. Do you think it is the so-called union pension 
bosses that are voting for $70 million pay raises?
    Mr. Verret. In answer to your question, if shareholders 
valued----
    Mr. Tierney. I don't think--is it a yes or a no? Do you 
really believe--do you believe that it is the pension funds and 
others like that, or the union pension funds that are voting 
the head of these firms $70 million in compensation?
    Mr. Verret. I think they are voting based on their own 
interest, and I think they will vote for things based on what 
they can get from it.
    Mr. Tierney. Please, Mr. Verret. You are a professor and 
you know better. All right? Do you really believe that those 
are the people that are voting a $70 million compensation 
package for the chief executive officer?
    Mr. Verret. I think they will or will not--I don't know 
what they are voting for, but I know they will or will not vote 
based on what sort of deals they can work with the company, and 
I worry about----
    Mr. Tierney. I think your credibility suffers a loss there 
when you answer that way and you are not just forthright on 
that, because I really have to believe that you don't think for 
a minute that they are the ones that are voting the $70 million 
pay packages. And if you do, then, as a good professor, maybe 
you will go back and look at your documentation a little bit on 
that.
    Mr. Verret. Well, I would disagree completely. I think that 
we have seen a lot of collusion between unions and firms on all 
sorts of deals. So I think they might vote for it if they got 
some sort of special deal for themselves as well. And I think 
when unions and boards collide or when governments and boards 
collide, the taxpayer and the ordinary Main Street shareholder 
is the one who is left holding the tab.
    Mr. Tierney. I have to press this a little further. So the 
only special interest you see sitting on boards are people that 
represent labor pension groups?
    Mr. Verret. Well, there are all sorts of special interests 
involved, absolutely, sure. They are not the only ones.
    Mr. Tierney. Right. Thank you.
    Mr. Kucinich. I thank the gentleman.
    While we are having this discussion, I am thinking of all 
these workers whose pension funds began to evaporate with the 
fallout on Wall Street and whose pension funds get collapsed in 
bankruptcies.
    This will be the last series of questions here. Start with 
Professor Eckbo. Your testimony, sir, outlines how the 
Treasury's passive voting strategy could, in principle, allow a 
director to be elected with just one vote of a minority 
shareholder. Would you explain or expand on what you see as the 
perils of passive shareholding, what corporate tricks or even 
scandals could fester while the United States is the dominant 
shareholder? And, as a followup, could the companies repeat the 
excessive compensation practices, short-sighted vision, and, in 
some cases, potentially criminal behavior while the United 
States is the dominant shareholder under Treasury's plan for 
shareholding? Professor.
    Mr. Eckbo. Mr. Chairman, I think it is important to start 
with the fact that the U.S. corporate system is a board-driven 
system from a legal perspective, so whatever decisions the 
boards are taking is going to be binding for the firm. And as 
we talked about earlier today, shareholder control of its own 
corporations is a function of how costly it is to replace these 
board members when they turn out not to be so good.
    Mr. Kucinich. What about the Treasury as a passive 
shareholder?
    Mr. Eckbo. In my mind, when you finally get these large 
shareholders who have all the incentives in the world to 
actually take the world and pay the cost of being an active 
shareholder, which is the problem with the small ones, then we 
would like Treasury to play that role.
    Mr. Kucinich. To play the role of?
    Mr. Eckbo. As an active large shareholder.
    Mr. Kucinich. And what would that mean?
    Mr. Eckbo. That means, for example, it means, in my mind, 
to try to restructure the system on a broad scale to support, 
to push for election reform for directors. It means go into the 
company and vote charter amendments, for example, where we take 
away staggered board provisions; we separate the chairmanship 
and the CEO position, which is common today in the United 
States. It is illegal in some other countries because of 
conflicts of interest that are involved. So you take these 
actions in order to get--and, of course, you get directors that 
you think are capable of running the company the way it should 
be done.
    Mr. Kucinich. Does anybody want to chime in here, any other 
panelist? Ms. Simpson, what do you think about Treasury's 
passive voting strategy?
    Ms. Simpson. I want to just come back to this point about--
--
    Mr. Kucinich. No, what do you think of that? I know you 
want to talk about what you want to talk about----
    Ms. Simpson. It is critical for all shareholders----
    Mr. Kucinich [continuing]. But just answer the question, 
would you?
    Ms. Simpson. It is critical for all shareholders to be 
active responsible owners and to push this governance overhaul, 
which is absolutely necessary. So majority voting, yes. Proxy 
access, absolutely. Removal of all the barriers to 
accountability like staggered boards, super-majority voting, 
poison pills, you know, there is a list of a dozen or so 
barriers to accountability and we want all owners to actually 
engage with these reforms; otherwise we have simply missed a 
huge opportunity.
    Mr. Kucinich. Anyone else want to join in? Anybody. 
Professor Verret, do you want to join in?
    Mr. Verret. In part, I wonder how passive it is, just 
because I know that they have said that it is passive and we 
have seen that they have a press release about it, but there is 
no binding regulation about it; and that is part of what 
worries me, is that there is no binding regulation on Treasury 
on how it is going to vote, and I think you lose some 
separation of powers and some accountability to the people and 
the Congress through that. Treasury also lists some exceptions. 
It says we won't vote shares, with the following exceptions. 
Ironically, it lists all the things shareholders would want to 
vote on; election of directors and dividends and things of that 
nature. So I think we probably share a concern with respect 
to----
    Mr. Kucinich. You know, you raise a point as to what is 
passive. At what point, when you are sitting there as a large 
shareholder, you pick up a phone and talk to someone, that can 
have an impact. What is the transition from passive to active? 
And is passive like a wall saying, we don't want to look, we 
don't want to hear anything? That, of course, would have some 
hazards if you are doing due diligence.
    Mr. Tonelson.
    Mr. Tonelson. Just one really fast point. That is why it is 
so essential that this Government shareholder role be tightly 
coordinated with the rest of our economic recovery strategy, 
because you don't want the situation where Government, as 
shareholder, decides to push a certain set of policies that may 
be good for the well being of that particular company if the 
whole economy happens to be moving in an entirely different 
way.
    Mr. Kucinich. So you see the position of the Government as 
shareholder in a broader economic context. In other words, you 
have to look at economic policy.
    Mr. Tonelson. You have to.
    Mr. Kucinich. Not in isolation.
    Mr. Tonelson. You can't silo these things anymore. 
Something that used to be as big as GM, and that still has such 
a vast supplier chain--and let me say I am not here as the 
champion of GM. Lots of our member companies have done business 
with it and, you know what? They didn't find it to be a lot of 
fun. OK? But a U.S.-owned automotive industry is vital to 
American economic success. We will not be a prosperous country 
without a big healthy automobile industry owned by Americans. 
And the strategy for that cannot be set simply by U.S. 
Government representatives voting in piecemeal ways on 
individual decisions and challenges that GM faces as a company. 
That role has to be integrated with a much broader strategy 
toward incentivizing more production, more job creation in 
manufacturing in this country.
    Mr. Kucinich. You know, Mr. Nader used the term cognitive 
dissonance earlier. I am sure this is something that is 
troubling a lot of economists and people who try to see a 
division between the public sector and the private sector. But 
you are putting your finger on something in terms of looking at 
the macroeconomic implications of the policies, because if we 
are told that some firms are too big to fail, if we take that 
view--I don't happen to believe that. I think that you break 
them up if they are too big to fail. But since we have that 
model that we have essentially confirmed the other day, then we 
better look at the macroeconomics and better play a role in 
determining that, because, on one hand, we can't say too big to 
fail and then, on the other hand, say we can't look at what you 
are doing.
    Mr. Tonelson. Exactly. And I will give you one very 
specific example. No one would like to see GM make a great 
small fuel efficient car more than me. However, we have to keep 
in mind that no economy on this planet, in its history, has 
ever produced small fuel efficient cars profitably while 
keeping their automotive markets open. It has never happened. 
The Europeans haven't done it because their auto markets are 
closed; the Japanese haven't done it; the South Koreans haven't 
done it. Their markets are closed. The margins just aren't 
there, and especially when you force American companies into 
competition with foreign rivals that are either highly 
subsidized or that put this tight lid on labor costs, you have 
a total no-win situation. You are forcing GM, for example, to 
take an absolutely suicidal course.
    Mr. Kucinich. You know, we are in a whole new era here in 
the era of bailouts, because what we have done, we have 
actually, unwittingly, created symmetry between our bailout 
policy and our trade policy, where trade policy does not admit 
to workers' rights, human rights, environmental quality 
principles, and with the Government as shareholder trumping 
taxpayers' rights in favor of shareholders. There is an 
alignment there with trade policy and bailout policy that could 
actually result in moving jobs out of this country.
    Mr. Tonelson. Oh, absolutely.
    Mr. Kucinich. Actually accelerating the movement of jobs.
    Mr. Tonelson. You could create--I am sorry.
    Mr. Kucinich. Mr. Nader and then I am going to go to one 
final question.
    Mr. Nader. Can I just elaborate quickly?
    Mr. Kucinich. Yes.
    Mr. Nader. On the China thing, imagine. Just look at this 
flow: worker taxpayer dollars, small business taxpayer dollars 
go to Washington; they help fund the bailout of General Motors; 
the U.S. Government owns 60 percent of GM. GM's policy is to 
move its future into China; that is going to be its big market. 
It is already huge. So what happens? If the Government, as 
shareholder and representative of the taxpayer, plays a passive 
role, they are basically allowing GM, with U.S. taxpayer 
support, to dislodge and hollow out communities here, go to 
China and export back into the United States. Do you see the 
conundrum here?
    These are hard questions, but you certainly, as a matter of 
principle, don't want to say to workers whose taxes go to 
Washington and small business that they are going to finance 
the hollowing out of their communities by GM's declared policy 
to expand in China and a non-binding promise that, temporarily, 
they won't export back into the United States. But everybody 
knows that is not binding. And if the U.S. 60 percent share 
doesn't kick in, that is the way it is going to go. I mean, 
this is unbelievable. We are stripping down our economy on 
behalf of manipulative dictatorships who determine costs. No 
marketplace determines labor costs in China. These are 
dictatorially determined costs and we call it free trade.
    Mr. Kucinich. Mr. Tierney for 5 minutes.
    Mr. Tierney. No, I don't want 5 minutes.
    Are you, Mr. Tonelson and Mr. Nader, then advocating that 
we just get out of General Motors or that we differently 
exercise the authorities of power that you have as a basis of 
your stock or your stake in the company?
    Mr. Tonelson. General Motors, just speaking for USBIC, has 
to be run in the way that will give it a real chance for 
success. You absolutely needed a viability strategy, but the 
Federal Government's viability strategy, the Obama 
administration's viability strategy failed completely to 
acknowledge the globalized nature of automotive production. It 
just ignored that; it didn't exist. Let's make believe it 
hasn't happened for the last 20 years. How in the world can 
that succeed? How can you expect General Motors to succeed in 
that context, with that lack of forethought?
    Mr. Tierney. Mr. Verret, what do you say to all that?
    Mr. Verret. Well, I don't profess to be an expert on the 
automotive industry, so I don't want to go outside of my 
expertise too much. But I will say----
    Mr. Tierney. Give it your best shot. Go ahead.
    Mr. Verret. Sir?
    Mr. Tierney. Go ahead, give it your best shot.
    Mr. Verret. Yes. I will say that I worry at taking the 
macro view. I do worry about both the effects of bailouts, the 
incentive effects. You know, we bailed out Chrysler before and 
I think it is a supportable proposition that the reason why we 
had to bail out Chrysler and GM was in part because they saw 
that they had that safety net, and I think it led them to take 
more risks than they needed to.
    And I think that is why--I know we focused a lot on what we 
disagree about, but I admire the chairman's vote on the 
bailout; I think it took a lot of courage and I think that is 
an admirable vote and a way of thinking that I think we should 
consider more. And I worry about the off-budget nature of some 
of the sorts of deals that governments and business tend to 
make when they get in bed together.
    Mr. Tierney. Thank you.
    I yield back, Mr. Chairman. Thanks.
    Mr. Kucinich. This is going to be the final question of 
this hearing, and this would be to any witness that would care 
to respond.
    Is Treasury the only, or even the best, entity to control 
the U.S.' shares? Now, Professor Eckbo calls attention to the 
U.K. approach in your testimony in establishing a special 
corporation to exercise the government's shareholding, improve 
transparency, and provide clear lines of accountability. I know 
that Ms. Simpson is familiar with this as well.
    I would like to ask any of the witnesses that they think 
about this concept and, in particular, Mr. Nader and Mr. 
Weissman, to comment on what model might be implemented to 
facilitate the broad principles or best practices that you 
outline in your testimony.
    So, Mr. Nader, would you want to comment on that, Mr. 
Weissman, and then maybe go back to Mr. Eckbo and Ms. Simpson?
    Mr. Nader. I think everybody knows eventually the 
Government is going to sell its shares in General Motors and 
these other companies, so my view is, instead of having another 
delegation--from the congressional to the executive to some 
trust fund--that the Treasury, under clear standards provided 
by the Congress, behave as a shareholder with multiple 
obligations, which I don't think are, in the short-term, 
conflicting. They have to represent not only taxpayer value, 
shareholder value, but the whole purpose of bailing out GM, the 
main purpose is to save communities and save jobs and keep a 
major factor of an industry in this country.
    So inescapably, when GM came to Washington and prostrated 
itself in front of the Congress, it went into the political 
arena. There have to be political judgments because of all the 
public investments, and those judgments can be made in the most 
enlightened form through congressional participation, openness, 
and standards of accountability.
    For the record, I would like to put in this review of 
Corporate Governance, the Role of Institutional Shareholders by 
Robert A. G. Monks, who arguably----
    Mr. Kucinich. So ordered.
    Mr. Nader [continuing]. Arguably is the leading shareholder 
activist in the country. And he has some very good 
recommendations to the point of your question, Mr. Chairman.
    Mr. Kucinich. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5130.090
    
    [GRAPHIC] [TIFF OMITTED] T5130.091
    
    [GRAPHIC] [TIFF OMITTED] T5130.092
    
    [GRAPHIC] [TIFF OMITTED] T5130.093
    
    [GRAPHIC] [TIFF OMITTED] T5130.094
    
    [GRAPHIC] [TIFF OMITTED] T5130.095
    
    [GRAPHIC] [TIFF OMITTED] T5130.096
    
    [GRAPHIC] [TIFF OMITTED] T5130.097
    
    [GRAPHIC] [TIFF OMITTED] T5130.098
    
    Mr. Kucinich. Anyone else want to join in? Mr. Tonelson.
    Mr. Tonelson. The Treasury Department has absolutely no 
expertise in fostering productive activity, in fostering wealth 
creation; it is not the Treasury's job. It is not their fault, 
but they shouldn't pretend that they have that expertise.
    Second point is that----
    Mr. Kucinich. So what do we do, then, with this situation 
we are in right now?
    Mr. Tonelson. These responsibilities have to be given to 
those sections or those agencies that have that competence. And 
if we can't find them, or in the right combinations, new forms 
have to be created.
    But one other critical point. If the U.S. Government is 
not--if it doesn't have a voice in making these critical 
decisions that will literally make or break critical 
industries, in a globalized world economy, those decisions will 
be made by foreign governments, and their first priority will 
not be the well being of the American people or their economy. 
So we have no choice but to act. Failing to act amounts to 
making policy that will damage us grievously.
    Mr. Kucinich. Before I go to Professor Eckbo, I would like 
Ms. Simpson to comment on this. Your fund deals with many 
troubled companies. How do you handle that, in terms of the 
interest of your members?
    Ms. Simpson. What is critical to this is separating out the 
different objectives. CalPERS's sole purpose is a fiduciary 
objective; we are there to invest on behalf of the 
beneficiaries. The U.K. model is intended to separate out 
government's interest for addressing political issues, which 
are quite legitimate from investment objectives; and, as an 
investor, it sets out in its mandate that it will vote, that it 
will engage with companies, and that political questions will 
be referred to ministers for proper political judgment where 
ministers can be held accountable.
    So, on CalPERS's side, we would like to see the fiduciary 
part of the agenda taken forwards and, as we said earlier, 
would welcome the Government as an owner working alongside us 
with a fiduciary objective.
    Mr. Kucinich. OK.
    Professor Eckbo.
    Mr. Eckbo. My recommendation of the U.K. FI as a model was 
very much because I wanted a separation between the Government, 
the political influence over the management of the shares, per 
se, and it creates more transparency and more responsibility on 
the part of the trust or the corporation that you are setting 
up. I also said in my testimony that I would probably put all 
the shares in the same unit, both the banking shares and the 
auto shares, because I don't see a tremendous difference in 
terms of the qualifications of the people in that trust that 
they need in order to manage that trust properly.
    I just wanted to make one comment, if I can, on this issue 
that you raise, which is very important. If I, as a taxpayer, 
would like to subsidize employment in Michigan, should I do it 
through my ownership stake in GM?
    Mr. Kucinich. By what, sir?
    Mr. Eckbo. Through my share ownership in GM. Should I use 
GM as a tool, as a taxpayer, as a tool to further my goals to 
get employment subsidies in Michigan? In my view, sometimes you 
can have your cake and you can eat it too. If you operate GM, 
as we heard across the table, to maximize the value of GM, I 
think the U.S. Congress will also have more funds to do its 
goals, which is to subsidize employment in Michigan. I don't 
think we have to tie the two together, necessarily.
    So I think the answer to your question should you be an 
active investor, I say yes in the governance area. People say 
what about these other social goals that you are pulling in, 
the macro economy and the employment record. I am saying we 
should probably separate the two, in my mind.
    Mr. Kucinich. Well, you know, it is an interesting point 
you raise, because what has happened in the latter part of the 
20th century, a whole body of investment information came alive 
dealing with socially responsible investing, and that is there 
was an understanding that your investment choices had a social 
impact; and that social impact could be monetized.
    Mr. Eckbo. Right. I agree with that. The Congress also 
operates under the--it needs revenues to further its goals, and 
I think the tax revenues that you are looking for can be 
maximized by having these corporations do their jobs as well as 
possible within the private sector. So I think mixing those two 
could be costly.
    Mr. Kucinich. OK, now, Ms. Brown, you have been very 
patient sitting there. Would you like to comment on this, or is 
there anything that this discussion--that has occurred to you 
that you would like to comment on or say?
    Ms. Brown. I would only note that the work that we 
currently have underway, we are looking at the issue of the 
Government says it has taken a hands-off approach. We are 
actually looking at what the Government is actually doing in 
all of the institutions that have received exceptional 
assistance. So we are looking at Bank of America, Citigroup, 
AIG, GM, Chrysler, GMAC, as well as Fannie Mae and Freddie Mac.
    So we are actually looking at kind of what the Government 
says it is doing and what it is actually doing. And I would 
note that when it comes to the Government being a passive 
investor, the Government has been involved in changing the 
board structure in certain situations. If you take AIG, for 
example, there is primarily a new board in place. The trustees 
had a role in identifying members for the board; they did an 
analysis of what they thought the new board needed to look 
like, the expertise they needed to bring into the board. And I 
would also like to note that when it comes to AIG, there is a 
provision that if AIG does not pay four consecutive dividend 
payments, the Government has the right to vote two members to 
the board of directors.
    Mr. Kucinich. Thank you.
    Last question to Mr. Weissman. Is there any practical 
advantage the Government now has as a result of being a 
dominant shareholder that it did not have before it became a 
shareholder?
    Mr. Weissman. [Remarks off mic.]
    Mr. Kucinich. Could you speak directly into the mic so we 
can hear you?
    Mr. Weissman [continuing]. The question that you have been 
raising, and I wanted to disagree with Professor Eckbo on a 
comment that is in the GAO report. The GAO experts consulted 
said that the Government should manage its shares as if it were 
a commercial investor. The Government is not a commercial 
investor. We did not get into General Motors, AIG, Citigroup 
because we thought there was a profit opportunity there. We 
made a policy decision that there were certain broader 
implications that required the continued existence of these 
firms. That suggests that, as we manage our shareholding 
opportunity, we have to take into account exactly those same 
broader policy considerations.
    To your previous question, I think that means, therefore, 
that you do not rely just on Treasury to manage the share 
decisions, you involve agencies like EPA or NTSA or Department 
of Commerce, if they are appropriate. Also, I think it speaks 
absolutely to the need for Congress to have much more oversight 
and engagement in this, because it is not going to come, as we 
see now, from this administration.
    Finally, to the point that you raised at the outset that is 
also related to this, we have to address the issue of exit. We 
now have the exit strategy emerging with Citigroup. There has 
to be some standard about what the exit is, it can't just be 
that we got in to help you out for a little while; we will get 
out whenever it is convenient to you. The you, the companies 
are us, the Government. The exit decision has to be managed in 
terms of what benefits the public and the Government interest 
in these corporations, not in the interest of the corporations 
themselves.
    Ms. Brown. Chairman, could I clarify?
    Mr. Kucinich. Go ahead, Ms. Brown.
    Ms. Brown. The comment in our statement about the 
commercial manner, this was not GAO's assertion that is how it 
should be; that was part of a discussion of how the Treasury 
explained they are managing the investment. So we were not 
endorsing that approach, but simply saying this is how it is 
being managed.
    Mr. Kucinich. I understand. It is a matter of record now.
    Mr. Nader said he wanted to make a comment and then we have 
just been notified that I just have a few minutes to go make a 
vote, so if you would make a brief comment.
    Mr. Nader. OK, very briefly. Here is the conundrum. The 
Government says they want to be passive investors. There is no 
such thing, when you own 60 percent of the company, of being a 
passive investor without tilting the dynamic in favor of the 
non-passive or the commercial investors. Let me give you an 
example. Proper role for the Government should have been to 
deal actively with who is going to be on the board of directors 
and who is going to run General Motors, because, historically, 
General Motors has been run for the last 60 years by finance 
executives or marketing executives, not by engineers, the way 
Henry Ford and Chrysler and others started the auto companies. 
That, of course, degraded the concept that most people who know 
the industry believe is central to the recovery of the auto 
industry; it is called product, product, product.
    So now GM is run by an ex-telephone executive with a lack 
of distinguished members of the board of directors. They have 
just fired the replacement for the original CEO, Fritz 
Henderson, and there is chaos at the top. So this is what 
happens when the Government, which has major responsibilities 
for GM's recovery, takes a standoffish position. And it would 
be good for the Government Accountability Office to provide 
Congress with information as to the degree, if any, the 
Government ratified these lack of distinguished boards of 
directors and the top management of GM.
    As Automotive News--which is no patsy for the industry, but 
it is an industry trade journal--has said repeatedly, 
especially in its current issue, General Motors needs an auto 
guy; it needs somebody who knows automobiles, production 
engineering, and innovation.
    Mr. Kucinich. What a thought.
    Mr. Nader. On that point, I want to submit to the record a 
report that we did a couple years ago called Innovation and 
Stagnation in Automotive Safety and Fuel Efficiency.
    Mr. Kucinich. Mr. Nader, we will accept that for the 
record. I am going to have to----
    Mr. Nader. Just one sentence.
    Mr. Kucinich. I am going to have to----
    Mr. Nader. The theme is that General Motors has been 
denying the practical innovations that its major suppliers have 
been putting forth for decades, and that is a management 
failure.
    Mr. Kucinich. I want to thank you for your testimony. We 
have another vote and we have covered a lot of the territory 
today.
    This is the Domestic Policy Subcommittee of Government 
Oversight and Reform. Our topic today has been the Government 
as Dominant Shareholder: How Should the Taxpayers' Ownership 
Rights be Exercised? We have had a distinguished panel. I 
appreciate each and every one of you participating. You have 
opened up other areas for inquiry which this committee will 
address. Tomorrow we are going to have Treasury here to testify 
and, as I said earlier, we are going to be asking them about a 
lot of things, including this Citigroup development.
    The committee now stands adjourned. Happy Holidays.
    Mr. Nader. Thank you, Mr. Chairman.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5130.099

[GRAPHIC] [TIFF OMITTED] T5130.100

[GRAPHIC] [TIFF OMITTED] T5130.101

[GRAPHIC] [TIFF OMITTED] T5130.102

[GRAPHIC] [TIFF OMITTED] T5130.103

[GRAPHIC] [TIFF OMITTED] T5130.104

[GRAPHIC] [TIFF OMITTED] T5130.105

[GRAPHIC] [TIFF OMITTED] T5130.106

[GRAPHIC] [TIFF OMITTED] T5130.107

[GRAPHIC] [TIFF OMITTED] T5130.108

[GRAPHIC] [TIFF OMITTED] T5130.109

[GRAPHIC] [TIFF OMITTED] T5130.110

[GRAPHIC] [TIFF OMITTED] T5130.111

[GRAPHIC] [TIFF OMITTED] T5130.112

[GRAPHIC] [TIFF OMITTED] T5130.113

[GRAPHIC] [TIFF OMITTED] T5130.114

[GRAPHIC] [TIFF OMITTED] T5130.115

[GRAPHIC] [TIFF OMITTED] T5130.116

[GRAPHIC] [TIFF OMITTED] T5130.117

[GRAPHIC] [TIFF OMITTED] T5130.118

[GRAPHIC] [TIFF OMITTED] T5130.119

[GRAPHIC] [TIFF OMITTED] T5130.120

[GRAPHIC] [TIFF OMITTED] T5130.121

[GRAPHIC] [TIFF OMITTED] T5130.122

[GRAPHIC] [TIFF OMITTED] T5130.123

[GRAPHIC] [TIFF OMITTED] T5130.124

[GRAPHIC] [TIFF OMITTED] T5130.125

[GRAPHIC] [TIFF OMITTED] T5130.126

[GRAPHIC] [TIFF OMITTED] T5130.127

[GRAPHIC] [TIFF OMITTED] T5130.128

[GRAPHIC] [TIFF OMITTED] T5130.129

[GRAPHIC] [TIFF OMITTED] T5130.130

[GRAPHIC] [TIFF OMITTED] T5130.131

[GRAPHIC] [TIFF OMITTED] T5130.132

[GRAPHIC] [TIFF OMITTED] T5130.133

[GRAPHIC] [TIFF OMITTED] T5130.134

[GRAPHIC] [TIFF OMITTED] T5130.135

[GRAPHIC] [TIFF OMITTED] T5130.136

[GRAPHIC] [TIFF OMITTED] T5130.137

[GRAPHIC] [TIFF OMITTED] T5130.138

[GRAPHIC] [TIFF OMITTED] T5130.139

[GRAPHIC] [TIFF OMITTED] T5130.140

[GRAPHIC] [TIFF OMITTED] T5130.141

[GRAPHIC] [TIFF OMITTED] T5130.142

[GRAPHIC] [TIFF OMITTED] T5130.143

[GRAPHIC] [TIFF OMITTED] T5130.144

[GRAPHIC] [TIFF OMITTED] T5130.145

[GRAPHIC] [TIFF OMITTED] T5130.146

[GRAPHIC] [TIFF OMITTED] T5130.147

[GRAPHIC] [TIFF OMITTED] T5130.148

[GRAPHIC] [TIFF OMITTED] T5130.149

[GRAPHIC] [TIFF OMITTED] T5130.150

[GRAPHIC] [TIFF OMITTED] T5130.151

[GRAPHIC] [TIFF OMITTED] T5130.152

[GRAPHIC] [TIFF OMITTED] T5130.153

[GRAPHIC] [TIFF OMITTED] T5130.154

[GRAPHIC] [TIFF OMITTED] T5130.155

[GRAPHIC] [TIFF OMITTED] T5130.156

[GRAPHIC] [TIFF OMITTED] T5130.157

[GRAPHIC] [TIFF OMITTED] T5130.158

[GRAPHIC] [TIFF OMITTED] T5130.159

[GRAPHIC] [TIFF OMITTED] T5130.160

[GRAPHIC] [TIFF OMITTED] T5130.161

[GRAPHIC] [TIFF OMITTED] T5130.162

[GRAPHIC] [TIFF OMITTED] T5130.163

[GRAPHIC] [TIFF OMITTED] T5130.164

[GRAPHIC] [TIFF OMITTED] T5130.165

[GRAPHIC] [TIFF OMITTED] T5130.166

[GRAPHIC] [TIFF OMITTED] T5130.167

[GRAPHIC] [TIFF OMITTED] T5130.168

[GRAPHIC] [TIFF OMITTED] T5130.169

[GRAPHIC] [TIFF OMITTED] T5130.170

[GRAPHIC] [TIFF OMITTED] T5130.171

[GRAPHIC] [TIFF OMITTED] T5130.172

[GRAPHIC] [TIFF OMITTED] T5130.173

[GRAPHIC] [TIFF OMITTED] T5130.174

[GRAPHIC] [TIFF OMITTED] T5130.175

[GRAPHIC] [TIFF OMITTED] T5130.176

[GRAPHIC] [TIFF OMITTED] T5130.177

[GRAPHIC] [TIFF OMITTED] T5130.178

[GRAPHIC] [TIFF OMITTED] T5130.179

[GRAPHIC] [TIFF OMITTED] T5130.180

[GRAPHIC] [TIFF OMITTED] T5130.181

[GRAPHIC] [TIFF OMITTED] T5130.182

[GRAPHIC] [TIFF OMITTED] T5130.183

[GRAPHIC] [TIFF OMITTED] T5130.184

[GRAPHIC] [TIFF OMITTED] T5130.185

[GRAPHIC] [TIFF OMITTED] T5130.186

[GRAPHIC] [TIFF OMITTED] T5130.187

[GRAPHIC] [TIFF OMITTED] T5130.188

[GRAPHIC] [TIFF OMITTED] T5130.189

[GRAPHIC] [TIFF OMITTED] T5130.190

[GRAPHIC] [TIFF OMITTED] T5130.191

[GRAPHIC] [TIFF OMITTED] T5130.192

[GRAPHIC] [TIFF OMITTED] T5130.193

[GRAPHIC] [TIFF OMITTED] T5130.194

[GRAPHIC] [TIFF OMITTED] T5130.195

[GRAPHIC] [TIFF OMITTED] T5130.196

[GRAPHIC] [TIFF OMITTED] T5130.197

[GRAPHIC] [TIFF OMITTED] T5130.198

[GRAPHIC] [TIFF OMITTED] T5130.199

[GRAPHIC] [TIFF OMITTED] T5130.200

[GRAPHIC] [TIFF OMITTED] T5130.201

[GRAPHIC] [TIFF OMITTED] T5130.202

[GRAPHIC] [TIFF OMITTED] T5130.203

[GRAPHIC] [TIFF OMITTED] T5130.204

[GRAPHIC] [TIFF OMITTED] T5130.205

[GRAPHIC] [TIFF OMITTED] T5130.206

[GRAPHIC] [TIFF OMITTED] T5130.207

[GRAPHIC] [TIFF OMITTED] T5130.208

[GRAPHIC] [TIFF OMITTED] T5130.209

[GRAPHIC] [TIFF OMITTED] T5130.210

[GRAPHIC] [TIFF OMITTED] T5130.211

[GRAPHIC] [TIFF OMITTED] T5130.212

[GRAPHIC] [TIFF OMITTED] T5130.213

[GRAPHIC] [TIFF OMITTED] T5130.214

[GRAPHIC] [TIFF OMITTED] T5130.215

[GRAPHIC] [TIFF OMITTED] T5130.216

[GRAPHIC] [TIFF OMITTED] T5130.217

[GRAPHIC] [TIFF OMITTED] T5130.218

[GRAPHIC] [TIFF OMITTED] T5130.219

[GRAPHIC] [TIFF OMITTED] T5130.220

[GRAPHIC] [TIFF OMITTED] T5130.221

[GRAPHIC] [TIFF OMITTED] T5130.222

[GRAPHIC] [TIFF OMITTED] T5130.223

[GRAPHIC] [TIFF OMITTED] T5130.224

[GRAPHIC] [TIFF OMITTED] T5130.225

[GRAPHIC] [TIFF OMITTED] T5130.226

[GRAPHIC] [TIFF OMITTED] T5130.227

[GRAPHIC] [TIFF OMITTED] T5130.228

[GRAPHIC] [TIFF OMITTED] T5130.229

[GRAPHIC] [TIFF OMITTED] T5130.230

[GRAPHIC] [TIFF OMITTED] T5130.231

[GRAPHIC] [TIFF OMITTED] T5130.232

[GRAPHIC] [TIFF OMITTED] T5130.233

[GRAPHIC] [TIFF OMITTED] T5130.234

[GRAPHIC] [TIFF OMITTED] T5130.235

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
